     USE OF THE DOD JOINT TECHNICAL ARCHITECTURE
              IN THE ACQUISITION PROCESS


Report No. D-2001-121                          May 14, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD Home Page at www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
C4I                   Command, Control, Communications, Computers, and
                         Intelligence
CJCSI                 Chairman, Joint Chiefs of Staff Instruction
DII COE               Defense Information Infrastructure Common Operating
                         Environment
JTA                   Joint Technical Architecture
                       Office of the Inspector General, DoD
Report No. D-2001-121                                                  May 14, 2001
   (Project No. D1999AE-0101.001)
   (Formerly Project No. 9AE-0091.01)

                 Use of the DoD Joint Technical Architecture
                          in the Acquisition Process

                                 Executive Summary

Introduction. This report is the second in a series and discusses the extent that DoD
planned and implemented DoD Component use of the Joint Technical Architecture
(JTA) to help in achieving weapon systems interoperability requirements and to support
affordability and an open systems approach to weapon system design. The JTA
specifies a set of primarily commercial specifications and standards that cover
information processing, information transfer, content, format, and security. In August
1996, the Office of the Secretary of Defense mandated that acquisition program
managers use the JTA for all command, control, communication, and intelligence
systems. In November 1998, the Office of the Secretary of Defense broadened the JTA
requirement to include all systems that produce, use, or exchange information
electronically; cross a functional or DoD Component boundary; or give the warfighter
or DoD decisionmaker an operational capability.

Objectives. The primary audit objective was to evaluate DoD progress in
implementing the standards contained in the JTA. We also followed up on
recommendations in the 1997 Inspector General, DoD, Report No. 98-023,
“Implementation of the DoD Joint Technical Architecture,” November 18, 1997.
Additionally, we reviewed management controls applicable to the audit objective.

Results. The Secretary of Defense Policy Offices have worked to promote program
manager and DoD Component use of the JTA in the design and development of
weapons systems and, in response to Inspector General, DoD, Report No. 98-023,
established a hierarchy of management councils and groups through which they exercise
oversight and configuration management of the JTA. However, the Policy Offices have
not yet established centralized tracking and controls to ensure that DoD Components
effectively plan and execute implementation of JTA requirements in the acquisition
process. Specifically:

 • Six of the 17 DoD Components that submitted JTA implementation plans to the
     Office of the Assistant Secretary of Defense (Command, Control,
     Communications, and Intelligence) for JTA Version 1.0 did not submit updated
     plans as requested to meet the expanded requirements of Versions 2.0 and 3.0.
     Also, 7 of the 10 DoD Components that submitted updated plans, along with
     1 DoD Component making an initial submission, omitted one or more major
     planning topics from their implementation plans (finding A);

 • Thirty-nine of 43 program managers did not insert JTA or JTA-compliant DoD
    Component technical architecture standards requirements into one or more key
    acquisition planning documents. Also, 10 of the 43 program managers did not
    require contractors to use the JTA standards in supporting the design of their
    system or system upgrade (finding B); and
 • Thirteen of 15 program managers did not submit a waiver request as required for
    using alternative standards to JTA performance-based standards (finding C).

As a result, the DoD will not fully realize the JTA objective of improving and
facilitating the ability of its systems to support joint and combined operations in an
overall investment strategy.

See Appendix A for details on the management control program as it relates to controls
over program managers and DoD Components using the JTA in acquisition programs.
Recommendations in this report, if implemented, will improve the process for planning
and executing implementation of JTA requirements and correct the material
management control weaknesses identified in the report.

Summary of Recommendations. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics (the Under Secretary); the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence) (the
Assistant Secretary); and the Joint Chiefs of Staff Director for Command, Control,
Communications, and Computers (the Joint Chiefs of Staff Director) establish
centralized tracking and controls to ensure that DoD Components effectively plan and
execute implementation of JTA requirements in the acquisition process.

Management Comments. The Under Secretary concurred with the findings and
recommendations but nonconcurred with establishing an office with responsibility for
implementing the recommendations in finding A. Instead, he requested that we
recommend establishing organizational responsibilities for implementing the
recommendations. He concurred with developing a guidance template for preparing
JTA plans but did not comment on the recommendations for reviewing, updating, and
reporting the status of JTA plans. He also concurred with establishing timeframes for
DoD Component submission of requirements documents for Defense Information
Systems Agency review but requested that we redirect the recommendation to the Joint
Chiefs of Staff Director. Additionally, he concurred with reviewing contractual
documents for JTA content but requested that we recommend establishing a review
process rather than assigning an organization responsibility for the review. He partially
concurred with providing clarifying guidance on preparing waiver requests. The
Assistant Secretary concurred with the findings and the recommendations. The Joint
Chiefs of Staff Director nonconcurred with the findings and the recommendations. The
Army provided unsolicited comments. The Army agreed with the findings and basically
agreed with the recommendations. A discussion of the management comments is in the
Findings section of the report, and the complete text is in the Management Comments
section.

Audit Response. We made the revisions to the recommendations as the Under
Secretary suggested. Because the Assistant Secretary had taken responsibility and
provided plans for implementing the report recommendations, our requests for further
comments are limited to those recommendations where the Under Secretary and the
Joint Chiefs of Staff Director still need to coordinate with the Assistant Secretary.
Specifically, we request that the Under Secretary and the Joint Chiefs of Staff Director,
along with the Assistant Secretary, provide a coordinated response for establishing
responsibilities for identifying the universe of DoD Components that should submit
plans for implementing the JTA. Additionally, we request that the Joint Chiefs of Staff
Director and the Assistant Secretary coordinate to establish timeframes for DoD
Components to submit requirements documents for Defense Information Systems
Agency review. We request that the Under Secretary, the Assistant Secretary, and the
Joints Chiefs of Staff Director provide comments by July 16, 2001.

                                             ii
Table of Contents

Executive Summary                                                              i

Introduction
     Background                                                                1
     Objectives                                                                5

Findings
     A. Joint Technical Architecture Implementation Plans                     6
     B. Use of Joint Technical Architecture Requirements in the Weapon
         System Acquisition Documentation.                                    20
     C. Requesting Waivers to Using Standards in the Joint Technical
         Architecture                                                        35

Appendixes
     A. Audit Process
          Scope                                                              40
          Methodology                                                        40
          Management Control Program Review                                  41
          Prior Coverage                                                     42
     B. Definitions of Terms Relating to the Joint Technical Architecture    43
     C. Relationship of the Joint Technical Architecture to Other DoD
         Programs and Initiatives                                            47
     D. Responsibilities for Managing the Joint Technical Architecture       51
     E. DoD Component Joint Technical Architecture Implementation Plans      54
     F. Key Acquisition Planning Documents                                   59
     G. Audit Response to Management Comments Concerning the Report          61
     H. Report Distribution                                                  76

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   79
     Assistant Secretary of Defense (Command, Control, Communications,
       and Intelligence)                                                      85
     Vice Director, Joint Staff                                               92
     Department of the Army                                                  113
Background
    Need for the Joint Technical Architecture. This report is the second in a
    series discussing the use of an open systems approach in the acquisition process
    for weapon systems. The first report discussed the extent that acquisition
    program managers considered and used an open systems approach in the design
    and development of major Defense weapon systems. This report discusses the
    extent that DoD planned and implemented DoD Component use of the Joint
    Technical Architecture (JTA) to help in achieving weapon systems
    interoperability requirements and in supporting affordability and an open
    systems approach to weapon system design. This report was made in response
    to:

       •   a request from the Office of the Assistant Secretary of Defense
           (Command, Control, Communications, and Intelligence) for followup on
           Inspector General, DoD, Report No. 98-023, “Implementation of the
           DoD Joint Technical Architecture,” November 18, 1997, to assess DoD
           progress in planning and implementing the standards contained in the
           JTA, and

       •   concerns of the DoD Open Systems Joint Task Force stated during the
           audit field work supporting Inspector General, DoD, Report
           No. D-2000-149, “Use of an Open Systems Approach for Weapons
           Systems,” June 14, 2000, on the need for DoD to improve the JTA
           documentation and procedures that program offices use in applying the
           JTA in weapon systems development.

    The open systems approach and the JTA are closely linked. The open systems
    approach involves acquisition program managers and contractors choosing
    commercially supported specifications and standards for system interfaces. The
    JTA prescribes a minimum set of information technology standards consisting
    primarily of consensus commercial standards but also including military-unique,
    and federal-unique standards. JTA standards cover information processing,
    information transfer, content, format, security, and commonality.

    In August 1996, the Under Secretary of Defense for Acquisition, Technology,
    and Logistics and the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) mandated that program managers use the
    JTA for all DoD command, control, communication, and intelligence systems,
    and for the interfaces of these systems to other key assets, such as weapons and
    office automation systems. In May 1998, the offices of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics; the Assistant Secretary of
    Defense (Command, Control, Communications, and Intelligence); and the Staff
    Director for Command, Control, Communications, and Computers, Joint Chiefs
    of Staff, agreed to broaden use of the JTA to include emerging capabilities, and
    in November 1998, issued a memorandum promulgating their May 1998
    agreement. The memorandum required acquisition program managers to use the
    JTA for all emerging capabilities, or changes to an existing capability that



                                        1
produces, uses, or exchanges information in any form electronically; crosses a
functional or DoD Component boundary; or gives the warfighter or DoD
decision maker an operational capability. Since October 1, 1998, Public Law
has made the DoD Chief Information Officer responsible for ensuring that
interface standards that apply throughout DoD are prescribed, as discussed
below in the paragraph “Public Law and Government Policy.”

The JTA:

   •   provides a foundation for interoperability among all tactical, strategic,
       and combat support systems at the technical architecture level,

   •   mandates interoperability standards and guidelines for system
       development and acquisition that will facilitate joint force operations,

   •   communicates to industry the DoD intent to consider open systems
       products and implementation, and

   •   acknowledges the direction of industry’s standards-based development.

The JTA provides interoperability standards that apply to Information
Technology and to National Security Systems, which include weapon systems
segments involving telecommunication and information exchange. DoD
operates the weapon systems telecommunication and information exchange
segments to fulfill military or intelligence missions. Additionally, program
managers use the JTA to provide commercial standards and specifications
needed to enable interoperability and to support an open systems design
approach. The JTA does not contain every standard that program managers
may need to develop the telecommunication and information exchange segments
of weapon systems; therefore, program managers may require additional
standards to meet system’s requirements.

The lessons learned from conflicts, including Desert Storm, resulted in Joint
Vision 2010 and Joint Vision 2020, conceptual templates of how the DoD will
leverage technological opportunities to achieve new levels of effectiveness in
joint warfighting. The ability of the National Security Systems supporting these
joint operations to interoperate (work together and exchange information) is
critical to their success. Implementation of the JTA is a crucial element in
achieving the goals of Joint Vision 2010 and Joint Vision 2020 because the JTA
provides DoD systems with the basis for the needed seamless interoperability at
the technical architecture level. The JTA defines the service areas, interfaces,
and standards (JTA elements) applicable to all DoD systems. The standards and
guidelines in the JTA are publicly available and, whenever possible,
commercially supported.

The JTA, by itself, is not sufficient to achieve interoperability. The JTA is
complementary to other DoD programs and initiatives aimed at the development
and acquisition of effective and interoperable information systems. These
related programs and initiatives include the Command, Control,
Communications, Computers, Intelligence, Surveillance, and Reconnaissance
Architecture Framework, developed through the DoD Architecture Coordination

                                    2
Council, the Requirements Generation System, and the initiative for
interoperability and supportability of National Security Systems and Information
Technology Systems administered through the Joint Chiefs of Staff. Also, to
maximize interoperability, DoD must fully implement two additional
architectures, the Operational Architecture, which identifies warfighter
relationships and information needs, and the Systems Architecture, which relates
characteristics and capabilities of individual systems to operational
requirements.

Appendix A provides details on DoD goals and performance measures in
response to the Government Performance and Results Act that are pertinent to
this report. Appendix B provides a listing of terms and definitions germane to
understanding DoD implementation of the JTA in designing weapon systems.
Appendix C explains how the JTA is complementary to other DoD programs
and initiatives.

Management of the JTA. The Offices of the Under Secretary of Defense for
Acquisition, Technology, and Logistics; the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence); and the Staff Director
for Command, Control, Communications, and Computers, Joint Chiefs of Staff,
(the Policy Offices) jointly manage the JTA. The Policy Offices exercise
management oversight and configuration management of the JTA as co-chairs of
the Architecture Coordination Council and through subordinate management
councils and groups made up of representatives from their respective offices and
from the DoD Components. The Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence), as the DoD Chief Information
Officer, must ensure the interoperability of National Security Systems and
Information Technology Systems throughout DoD and that DoD Components
use prescribed National Security Systems and Information Technology Systems
data standards, including applicable standards in the JTA. Also the DoD Chief
Information Officer has additional responsibilities for pre- and post-acquisition
interoperability of Information Technology and National Security Systems that
overlap the responsibilities of the Under Secretary of Defense for Acquisition,
Technology, and Logistics. Appendix D provides details on the roles and
responsibilities for managing the JTA, as well as the overall information
technology responsibilities of the Chief Information Officer.

The DoD manages JTA implementation planning and compliance through DoD
Component Acquisition Executives, program executive officers, and program
managers. The Component Acquisition Executives are responsible for
developing and enforcing JTA implementation plans. If program office use of a
JTA-mandated standard will negatively impact cost schedule or performance,
the DoD Component Acquisition Executive or cognizant Office of the Secretary
of Defense Principle Staff Assistant may grant a waiver from use. For mission-
critical or mission-essential programs, the DoD Components submit waiver
requests through the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) to the Under Secretary of Defense for
Acquisition, Technology, and Logistics for review and concurrence. Program
executive officers are to assist the Acquisition Executives in enforcing JTA
implementation plans by reviewing the efforts of program managers to
implement the standards contained in the JTA.

                                    3
Structure of the JTA. The JTA consists of two main parts: the JTA Core and
the JTA annexes. The JTA Core contains the minimum set of JTA elements
applicable to all DoD systems to support interoperability and commonality
requirements. The JTA annexes contain additional JTA elements applicable to
specific functional domains (families of systems). These additional JTA
elements are needed to ensure interoperability of systems within each domain
but may be inappropriate for systems in other domains. The year 2000 version
of the JTA includes annexes for the Command, Control, Communications,
Computers, Intelligence, Surveillance, and Reconnaissance (C4ISR) domain; the
Combat Support domain; the Modeling and Simulation domain; and the Weapon
Systems domain. Where subsets of an application domain have special
interoperability requirements, the JTA includes subdomain annexes containing
JTA elements applicable to systems within that subdomain. The intention is that
a system within a specific JTA subdomain adopts the JTA elements contained in
the relevant subdomain annex, the JTA elements contained in the parent domain
annex, and the JTA elements contained in the JTA Core.

Additional standards (and technologies) may be required to meet system
requirements. The JTA mandates the minimum set of standards and guidelines
for the acquisition of all DoD systems that produce, use, or exchange
information.

Public Law and Government Policy. Public law and Government policy
support DoD use of the JTA through mandating the use of industry based
standards. DoD policy requires program managers to use applicable JTA
standards in designing weapon systems.

         Public Law. Section 12(d) of Public Law 104-113, “National
Technology Transfer and Advancement Act of 1995,” March 7, 1996, requires
that all Federal agencies and departments use technical standards developed or
adopted by the voluntary consensus standards bodies as a means to carry out
policy objectives or activities. The JTA is primarily made up of industry
standards developed or adopted by voluntary consensus standards bodies. Also,
section 2223, title 10, United States Code, “Information Technology:
Additional Responsibilities of Chief Information Officers,” October 1, 1998,
requires the DoD Chief Information Officer to ensure the interoperability of
Information Technology and National Security Systems within DoD and to
prescribe Information Technology and National Security Systems standards that
apply throughout DoD. Further, the Public Law requires that the Chief
Information Officer for each Military Department ensure that the Information
Technology and National Security Systems are in compliance with Government
and DoD standards and ensure that Information Technology and National
Security Systems are interoperable with other relevant Government and DoD
Information Technology and National Security Systems.

       Government Policy. The Office of Management and Budget and DoD
issued policy that supports implementation of the JTA. The Office of
Management and Budget issued Circular A-119, “Federal Participation in the
Development and Use of Voluntary Consensus Standards and in Conformity
Assessment Activities,” February 10, 1998. Circular A-119 directs agencies to
use voluntary consensus standards instead of government-unique standards

                                   4
     except where they are inconsistent with law or otherwise impractical. The
     policies in the Circular are intended to reduce agency reliance on government-
     unique standards. Details on relevant DoD acquisition policy relating to
     program manager use of the JTA are contained in findings A, B, and C.

     Survey Questionnaires. We distributed survey questionnaires to the offices of
     DoD Component Acquisition Executives, Program Executive Officers, and
     program managers for major Defense acquisition programs. We obtained
     responses to survey questionnaires from 2 of 4 Component Acquisition
     Executives, 15 of 19 Program Executive Officers, and 81 of 86 program
     managers. The objectives of the survey were to identify problems that program
     offices and DoD Components were having in implementing the standards
     contained in the JTA and to measure the extent of JTA implementation.
     Overall, the survey responses indicated that Component Acquisition Executives,
     Program Executive Officers, and program managers were aware of the
     requirement for acquisition programs to comply with the JTA and were aware
     that DoD Components were required to have JTA implementation plans.
     Additionally, the survey responses indicated that use of the JTA was a viable
     means for promoting the necessary level of interoperability between systems.
     Further, the survey responses indicated that most program managers believed
     that the standards contained in the JTA were technically mature and
     implementable, were publicly available, and were consistent with the law.
     However, the survey responses indicated that most program managers do not
     invoke the JTA in their contracts. Findings B and C further discuss the survey
     responses. Also, we plan to issue an informational report that will contain
     details of the survey responses received.

Objectives
     The primary audit objective was to evaluate DoD progress in planning and
     implementing the standards contained in the JTA to promote achieving systems
     interoperability requirements and to support use of an open systems approach in
     the design and development of major weapon systems. We also followed up on
     recommendations in a 1997 Inspector General, DoD, Report No. 98-023 on
     implementing the JTA and reviewed management controls applicable to the audit
     objective. Appendix A discusses the audit scope and methodology, as well as
     the management control program and prior audit coverage.




                                         5
           A. Joint Technical Architecture
              Implementation Plans
           Although the DoD Components developed plans to implement the JTA,
           the plans did not fully comply with policy and guidance from the Policy
           Offices and did not show a consistent approach in implementing the
           standards contained in the JTA. Specifically, 6 of 17 DoD Components
           that submitted JTA plans to the Office of the Assistant Secretary of
           Defense (Command, Control, Communications, and Intelligence) for
           JTA Version 1.0, did not submit updated plans as requested to meet the
           expanded requirements of JTA Versions 2.0 and 3.0. Also, 7 of 10
           DoD Components that submitted updated plans omitted one or more
           major planning topics. Additionally, provisions in the DoD Component
           plans varied significantly. These conditions occurred because the Policy
           Offices did not:

              •   identify the universe of DoD Components that should submit JTA
                  implementation plans;

              •   issue definitive guidance for preparing and updating the plans;
                  and

              •   establish formal management processes to receive, track,
                  evaluate, and provide feedback on the content of the plans.

           As a result, DoD has less assurance that the JTA implementation efforts
           of individual DoD Components will effectively and efficiently support
           meeting overall DoD interoperability goals. Without effective
           coordination and direction from the Policy Offices to enable DoD
           Components to achieve consistent and well-planned JTA implementation
           plans, the JTA will not achieve maximum effectiveness as a tool for
           promoting overall DoD system interoperability requirements in
           individual weapon systems.

Policy for JTA Implementation Plans
    Although the Policy Offices issued three memorandums, as discussed below, to
    the DoD Components concerning the submission and content of JTA
    implementation plans, the Policy Offices had only incorporated the provisions of
    the first memorandum into DoD Regulation 5000.2-R, “Mandatory Procedures
    for Major Defense Acquisition Programs (MDAPs) and Major Automated
    Information Systems (MAIS) Acquisition Programs,” March 23, 1996. Policy
    Office efforts to update the Regulation are discussed in finding B.

    “Implementation of the DoD Technical Architecture,” August 22, 1996.
    This memorandum addresses implementation of the initial version of the JTA,
    now known as Version 1.0. The Policy Offices required all DoD Components
    to provide a plan outlining their approach for implementing the standards


                                       6
    contained in the JTA to the Offices of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics and the Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence) within 90 days. In their
    implementation plans, DoD Components were to specify that:

       •   Component use of the JTA was mandatory for all emerging command,
           control, communication, computer, and intelligence systems; for
           upgrades to these systems; and for the interfaces of these systems to
           other key assets, such as weapons and office automation systems.

       •   Components were to migrate existing command, control,
           communication, computer, and intelligence systems to the applicable
           JTA standards, while considering cost, schedule and performance
           impacts.
    The memorandum further states that DoD Components were responsible for
    implementing the standards contained in the JTA, including enforcing,
    budgeting, and determining the pace of system upgrades.

    “DoD Joint Technical Architecture (JTA) Version 2.0,” November 30,
    1998. The Policy Offices implemented JTA Version 2.0 in this memorandum
    that promulgated a May 1998 Policy Offices’ agreement to broaden the
    requirement for program manager use of the JTA from only command, control,
    communication, computer, and intelligence systems and their interfaces to all
    emerging capabilities, or changes to an existing capability that produces, uses,
    or exchanges information in any form electronically. The memorandum also
    required that each DoD Component submit initial or updated plans for
    implementing the standards contained in the JTA. Updated plans were due in
    60 days and initial plans within 90 days of the date of the memorandum.

    “DoD Joint Technical Architecture (JTA) Version 3.0,” November 29,
    1999. In this memorandum, the Policy Offices introduced JTA Version 3.0 for
    DoD Component use. JTA Version 3.0 added additional subdomain annexes to
    the standards in the JTA core and domain annexes. Further, the memorandum
    reiterated the requirement that each DoD Component and cognizant Office of
    the Secretary of Defense authority have a current JTA implementation plan on
    file with the Offices of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics and the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence). The memorandum requires DoD
    Components to submit additional plans if they had not submitted a plan
    implementing JTA Version 2.0.

DoD Component Implementation Plans
   DoD Component implementation plans showed that the Components did not fully
   comply with policy and guidance issued by the Policy Offices regarding
   submission of plans and content of plans. Also, the DoD Component
   implementation plans did not show a consistent approach in implementing the



                                        7
standards contained in the JTA. Inspector General, DoD, Report No. 98-023,
“Implementation of the DoD Joint Technical Architecture,” November 18, 1997,
reported similar conditions.

Submission of Plans. Six of the 17 DoD Components that submitted JTA plans
for JTA Version 1.0 did not provide updated plans to meet the expanded
requirements of JTA Versions 2.0 and 3.0. Since the requirements of JTA
Version 2.0 made the JTA applicable to many more weapons and support
systems and JTA Version 3.0 added additional types of standards, the DoD
Components were required to update their implementation plans to consider the
increased time, cost, and enforcement necessary to implement the JTA.
Inspector General, DoD, Report No. 98-023 also reported shortfalls in plan
submission, stating that the 17 DoD Components that submitted plans for JTA
Version 1.0 were less than half of the Components that should have responded.
Appendix E provides details on which of the 17 DoD Components submitting
implementation plans for JTA Version 1.0 did and did not submit updated plans
to implement JTA Versions 2.0 and 3.0.

Content of Plans. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) issued the memorandum, “Clarification on
the Content of DoD Components’ Joint Technical Architecture Implementation
Plan,” October 4, 1996, that provided DoD Components with direction to
address nine topics in their JTA implementation plans for JTA Version 1.0.
Inspector General, DoD, Report No. 98-023 reported that, as of June 2, 1997,
8 of the 17 DoD Components submitting responses to JTA Version 1.0 provided
detailed plans. Six of the eight detailed plans addressed all of the topics in the
October 1996 memorandum. Additionally, the report stated that DoD
Component plans should have included three additional significant planning
topics: the DoD Component priority for JTA implementation, estimated cost for
JTA implementation, and an implementation schedule.

The implementation plans available, as of June 30, 2000, showed that 11 DoD
Components had submitted JTA Versions 2.0 or 3.0 implementation plans
(10 updated plans and one additional DoD Component making an initial
submission of a JTA implementation plan). Seven of the 11 plans did not
address one or more of 12 planning topics (9 topics that the Policy Offices
established in the October 1996 memorandum and the 3 additional topics
discussed in Inspector General, DoD, Report No. 98-023). The following tables
show the number of plans that did not address each planning topic and the
number of topics that each DoD Component did not address in its plans.




                                     8
Table 1. DoD Component Plans Not Addressing Planning Topics

                                                     Number of Plans
                                                     That Did Not
                                                     Address
                  Planning Topics                    Planning Topics


    1. Management and oversight structure, processes,      0
       and responsibilities

    2. Approach to configuration management and control    2
    3. Implementation procedures and the organizations     0
       overseeing these

    4. Approach for using JTA domains                      1

    5. Criteria for migration to JTA compliance            1

    6. Customer support                                    3

    7. Training and education                              4

    8. Plans to integrate with other ongoing Component     2
       initiatives

    9. Strategy for assessing progress towards             1
       implementation

   10. Priority for implementing JTA standards             4

   11. Budgeting for the JTA                               3

   12. Timeframes for implementing JTA standards           5




                                9
  Table 2. Planning Topics That DoD Components Did Not Address

                                                                   Number of
                                                                   Planning Topics
                          DoD Component Plans                      Not Addressed


         Army                                                               0

         Navy                                                               3

         Air Force                                                          1

         Ballistic Missile Defense Organization                             4

         Defense Information Systems Agency                                 0

         Defense Intelligence Agency                                        2

         Defense Logistics Agency                                           5

         National Imagery and Mapping Agency                                0

         Nationa1 Security Agency                                           1

         United States Special Operations Command                           0

         Defense Threat Reduction Agency                                  10*

*The Defense Threat Reduction Agency indicated that on December 29, 1999, the Office of the
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
authorized the Defense Threat Reduction Agency to do a preliminary plan as a result of the
Agency absorbing the Defense Special Weapons Agency and the Onsite Inspection Agency on
October 1, 1998.

Appendix E provides a detailed comparison of the contents of the updated and
initial JTA implementation plans against the direction that DoD Components
received from the Policy Offices and the additional planning elements cited in
Inspector General, DoD, Report No. 98-023.

Variance in JTA Provisions. The 11 DoD Component implementation plans for
JTA Versions 2.0 and 3.0 varied significantly in their provisions for
implementing the standards contained in the JTA. The variances occurred
because the Policy Offices had not prepared a template for DoD Component use
that listed and explained the required planning topics and content for each topic
based on individual DoD Component missions and activities. In reviewing
individual DoD Component plans, we noted unique strengths that could be



                                         10
    beneficial for all Components to address in their plans. Significant unique
    provisions of JTA implementation plans that the Army, Navy, and Air Force
    prepared follow.

           Army. The Army implementation plan required program milestone
    decision authorities to use JTA compliance as exit criteria for acquisition
    program milestone reviews and future program advancement and funding.
    Also, the Army provided a specific schedule for implementing the standards
    contained in the JTA, with the requirement that all Army systems meet all
    applicable JTA standards by the end of FY 2006.

           Navy. The Navy implementation plan defined the language that DoD
    Components and program managers should include in the mission needs
    statement, the operational requirements document, and the system specification
    to ensure that system planning documents complied with JTA requirements.
    Also, the Navy identified the organizations responsible for reviewing the
    planning documents for JTA compliance.

           Air Force. The Air Force implementation plan provided a compliance
    assessment template for program managers to complete as a tool to assist the
    program managers in implementing the standards contained in the JTA.

Planning Direction and Oversight
    DoD Component plans for implementing the standards contained in the JTA did
    not fully comply with guidance from the Policy Offices and did not show a
    consistent approach in implementing the JTA because the Offices of the Under
    Secretary of Defense for Acquisition, Technology, and Logistics and the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) did not :

        •   identify the universe of DoD Components that should submit JTA
            implementation plans;

        •   issue definitive guidance for preparing and updating the plans; and

        •   establish formal management processes to receive, track, evaluate, and
            provide feedback on the content of the plans.

    Submission List. The Offices of the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) and the Under Secretary of Defense
    for Acquisition, Technology, and Logistics had not initially coordinated to
    identify the universe of DoD Components that should formulate JTA
    implementation plans based on their missions and activities. Subsequent
    memorandums sent out to implement JTA Versions 1.0, 2.0, and 3.0 were
    addressed to the Secretaries of the Military Departments; the Chairman, Joint
    Chiefs of Staff; the Under and Assistant Secretaries of Defense; Assistants to the
    Secretary of Defense; the DoD General Counsel; the Director, Operational Test
    and Evaluation; and the Directors of Defense Agencies. The November 1998


                                        11
and November 1999 memorandums implementing JTA Versions 2.0 and 3.0,
respectively, requested plans from “Each DoD Component and cognizant OSD
authority ….” While the Office of the Assistant Secretary widely disseminated
the JTA implementation memorandums, the Office had not taken action to ensure
that all DoD Components engaged in acquisition of new or modified capabilities
meeting the criteria for JTA requirements submitted implementation plans.

As discussed above, Inspector General, DoD, Report No. 98-023 reported that
fewer than half of DoD Components responded to the Assistant Secretary’s
request for implementation plans for JTA Version 1.0 and since then, only one
other DoD Component had submitted an initial implementation plan.
Accordingly, the Office of the Assistant Secretary needs to identify the universe
of DoD Components that, based on their acquisition efforts, should be submitting
JTA implementation plans. The Office of the Assistant Secretary can then direct
its attention to ensuring that all DoD Components establish processes and
procedures for submitting JTA implementation plans, as required, and provide
direction, as needed, on the suitability of submitted plans.

Guidance. When requesting DoD Components to update their JTA
implementation plans for JTA Versions 2.0 and 3.0, the Policy Offices did not
reference the earlier memorandum, “Clarification on the Content of DoD
Components’ Joint Technical Architecture Implementation Plans,” October 4,
1996, that identified the nine planning topics for inclusion in the DoD
Component implementation plans. Also, the Office of the Assistant Secretary did
not provide direction that the three additional planning topics (budgeting for JTA,
priority for implementing JTA, and timeframes for implementing JTA) identified
in Inspector General, DoD, Report No. 98-023 should be included in the DoD
Component implementation plans for JTA Versions 2.0 and 3.0.

Management Processes. The Policy Offices delegated responsibility to each
DoD Component for implementing the standards contained in the JTA. In the
“Implementation of the Technical Architecture” (Version 1.0)” memorandum,
the Policy Offices assigned the DoD Components the responsibility for assuring
compliance with the JTA, including programming and scheduling resources for
JTA implementation. The Policy Offices gave similar direction in the
implementation memorandum for JTA Version 2.0. As a result, the Policy
Offices did not review, approve, or provide feedback to the DoD Components on
the content of their implementation plans. As discussed above, the three Military
Departments’ implementation plans had unique strengths. Through review,
feedback, and approval, the Policy Offices could assist the DoD Components in
ensuring that the JTA implementation plans are complete and consider best
practice planning provisions from other DoD Components’ implementation plans.

During the audit for Inspector General, DoD, Report 98-023, the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence)
staff stated that the office was forming a review team to develop criteria by
August 1997 for analyzing JTA implementation plans. Staff at the Office of the
Assistant Secretary stated that the office had not formed the review team because
of a lack of personnel resources. However, during the course of our audit, the
Office began action that, when completed, will allow it to receive, track,
evaluate, and provide review and feedback on DoD Component plans. On

                                    12
    August 1, 2000, the Office of the Assistant Secretary issued for coordination a
    draft update of DoD Regulation 4630.8, “Procedures for Compatibility,
    Interoperability, and Integration of Command, Control, Communications, and
    Intelligence (C3I) Systems,” November 18, 1992. The draft requires the DoD
    Chief Information Officer [the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence)] to review and approve DoD
    Component JTA implementation plans.

Value of JTA Implementation Planning
    Without effective oversight from the Policy Offices, DoD Components may not
    formulate and execute consistent and well-planned JTA implementation plans
    and the JTA will not achieve maximum effectiveness as a tool for promoting
    overall DoD system interoperability requirements in individual weapon systems.
    As defined in the JTA implementation memorandums, JTA implementation
    plans are designed to ensure that each DoD Component:

        •   defines tailored processes for assuring JTA compliance, for
            programming and budgeting resources for implementing compliance, and
            for tracking implementation progress;

        •   assigns and designates roles and responsibilities within the DoD
            Component for implementing the standards contained in the JTA in their
            acquisition programs;

        •   defines responsibilities within the DoD Component for reviewing
            program requests for waiver of JTA standards for mission-critical and
            mission-essential National Security Systems to support the Component
            Acquisition Executive in determining whether to approve waiver requests
            and to forward them to the Offices of the Under Secretary of Defense for
            Acquisition, Technology, and Logistics and the Assistant Secretary of
            Defense (Command, Control, Communications, and Intelligence), as the
            DoD Chief Information Officer, for review.

    The Assistant Secretary of Defense (Command, Control, Communications and
    Intelligence) requirement for DoD Component implementation plans is
    consistent with his responsibilities as DoD Chief Information Officer, which, as
    stated in public law, includes ensuring the information interoperability of
    National Security Systems and Information Technology Systems.




                                        13
Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our response are in
    Appendix G.



Recommendations Management Comments, and Audit
 Response

   Revised Recommendations. As a result of the management comments, we
   revised the lead-in to the draft recommendations to recommend that the Policy
   Offices establish organizational responsibilities for performing the recommended
   actions rather than establishing an organization with responsibilities for
   performing these actions.

   A. We recommend that the Under Secretary of Defense for Acquisition,
   Technology, and Logistics; the Assistant Secretary of Defense (Command,
   Control, Communications, and Intelligence); and the Joint Chiefs of Staff
   Director for Command, Control, Communications and Computers, as
   co-chairs of the Architecture Coordination Council, establish organizational
   responsibility for:

          1. Identifying the universe of DoD Components that, based on their
   acquisition efforts, should be submitting plans for implementing the DoD
   Joint Technical Architecture.

   Under Secretary of Defense for Acquisition, Technology, and Logistics
   Comments. The Director, Interoperability, responding for the Under Secretary,
   nonconcurred with the recommendation, as written in the draft report. He
   requested that we modify the recommendation to require the Policy Offices, as
   co-chairs of the Architecture Coordination Council, to establish organizational
   responsibilities for the recommended actions rather than establishing an
   organization with these responsibilities. The Director stated that this change
   would allow the Architecture Coordination Council to decide on how to
   implement the recommendations rather than dictating the establishment of a new
   organization. Additionally, the Director stated that we should clearly distinguish,
   throughout the report, between the phrases “implementing the JTA” and
   “implementing JTA standards.” He stated that the Component Acquisition
   Executives are responsible for implementing the JTA in their requirements
   procedures and processes He stated that program managers are responsible for
   implementing only the appropriate JTA standards in the products that result from
   the requirements process. The Director also stated that he could not provide
   completion dates for implementing this recommendation and
   Recommendations A.2., A.3., and A.4. until after the Under Secretary of
   Defense for Acquisition, Technology, and Logistics; the Assistant Secretary of

                                        14
Defense (Command, Control, Communications, and Intelligence); and the Joint
Chiefs of Staff Director for Command, Control, Communications and Computers
finalized the charter for the Architecture Integration Council in the next few
months. The Architecture Integration Council will replace the Architecture
Coordination Council, and the Director stated that he expects action to implement
the recommendations to occur in a manner to which the new Council agrees.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director, Architecture and Interoperability,
responding for the Assistant Secretary, concurred, stating that his office will work
with the Office of the Under Secretary of Defense for Acquisition, Technology,
and Logistics to identify the universe of DoD Components that they will require to
submit JTA implementation plans. The Director stated that the universe of DoD
Components required to submit JTA implementation plans would be those
Components having Component Acquisition Executive or equivalent acquisition
authority.

Joint Chiefs of Staff Director for Command, Control, Communications and
Computers Comments. The Vice Director, Joint Staff, responding for the
Director for Command, Control, Communications and Computers, nonconcurred,
stating that JTA implementation memorandums addressed DoD Components as
defined in DoD Directive 5025.1, “DoD Directives System,” July 27, 2000. The
Vice Director further stated that those DoD Components having major acquisition
involvement had submitted their JTA implementation plans.

Audit Response. The Director, Interoperability, and the Director, Architecture
and Interoperability, comments were responsive. In response to those comments,
we modified the recommendation to require that the Architecture Coordination
Council establish organizational responsibilities for the recommended actions. We
kept the phrase “implementing the JTA” in the recommendation because we were
referring to a JTA responsibility of the DoD Component Acquisition Executives.
Where necessary, we made revisions to the text of the report to more
appropriately use the JTA implementation phrases. While the comments from the
two Directors were responsive, the organizational responsibilities for achieving
the corrective action differed. The Director, Interoperability, stated that the
Offices of the Under Secretary, the Assistant Secretary, and the Joint Chiefs of
Staff Director for Command, Control, Communications and Computers would
implement the recommendations through the new Architecture Integration
Council. Conversely, the Director, Architecture and Interoperability, stated that
his Office would work with the Offices of the Under Secretary to identify the
universe of DoD Components required to submit JTA implementation plans and
did not mention the Architecture Integration Council.

The comments from the Vice Director, Joint Staff, were not responsive.
Although the JTA implementation memorandums that the Vice Director cited in
his response had a broad distribution, the Policy Offices had not identified the
universe of DoD Components that, based on their acquisition efforts, should be
submitting JTA implementation plans. Additionally, while those DoD




                                     15
Components having major acquisition involvement may have submitted a JTA
implementation plan, six DoD Components had only submitted implementation
plans for JTA Version 1.0 and not for JTA Version 2.0 as detailed in
Appendix E.

In response to the final report, we request that the Under Secretary of Defense for
Acquisition, Technology, and Logistics; the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence); and the Joint Chiefs of
Staff Director for Command, Control, Communications and Computers, in a
coordinated response, provide an estimated completion date for the Architecture
Integration Council to identify the universe of DoD Components required to
submit JTA implementation plans.

       2. Developing and distributing to DoD Components a template for
preparing DoD Joint Technical Architecture implementation plans that would
include a listing and explanation of required DoD Joint Technical
Architecture planning topics and the rationale for each planning topic, and
considerations for addressing each topic.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Interoperability, concurred, but requested that the
recommended template should also include sample language for DoD Components
to use in developing requests for proposals and contract statements of work, as
well as guidance on distinguishing JTA implementation template approaches
between weapon systems and business systems. The Director stated that the
templates could provide a vehicle for standard contractual language. He stated
that, for business systems, the separate template would provide a guide to
distinguish JTA implementation approaches from those used for weapon systems.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director, Architecture and Interoperability,
concurred, stating that the Deputy Chief Information Officer’s office would direct
the Defense Information Systems Agency Center for Standards to develop a
template for the JTA implementation plan that the DoD Components would use in
developing their JTA implementation plans. He further stated that the Defense
Information Systems Agency would post the template, to include planning topics
and content considerations, to the JTA web page immediately upon completion
and would incorporate the template into the next revision of the JTA as an
appendix. The Director anticipated completing corrective action on this
recommendation by October 1, 2001.

Joint Chiefs of Staff Director for Command, Control, Communications and
Computers Comments. The Vice Director, Joint Staff, nonconcurred, stating
that current DoD procedures already addressed the recommendation. Specifically,
he stated that acquisition-related language mandating program office use of the
JTA is already contained in DoD Regulation 5000.2-R, January 4, 2001.
Additionally, he stated that Director, Joint Staff Memorandum 77-99, “Guidance
for DoD Joint Technical Architecture Version 2.0 Implementation Plans,” January
1999, provided further instructions for DoD Components to follow.



                                     16
Audit Response. The comments from the Director, Interoperability, and the
Director, Architecture and Interoperability, were responsive. We did not revise
our recommendation to add template sample language for DoD Components to use
in developing requests for proposals and contract statements of work because the
recommendation addresses JTA plans and topics. However, the Policy Offices
could consider including the area of contract planning as another JTA planning
topic. Also, sample language for requests for proposals and contract statements
of work are contained in the draft version of the “DoD Joint Technical
Architecture User Guide,” April 11, 2000, as discussed in the “Guidance on the
Use of the JTA” section of finding B.

The comments from the Vice Director, Joint Staff, were partially responsive. The
Director Joint Staff Memorandum 77-99 includes exerpts from the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence)
memorandum, “Clarification on the Content of DoD Components’ Joint Technical
Architecture Implementation Plans,” October 4, 1996, concerning elements that
DoD Components should address in JTA implementation plans. However, the
exerpts do not list and explain required JTA planning topics, the rationale for each
topic, and the considerations for addressing each topic as stated in the
recommendation.

No further comments on this recommendation are necessary because the Director,
Architecture and Interoperability, has taken responsibility for implementing the
recommendation by October 1, 2001.

      3. Establishing control procedures and requirements to ensure that
DoD Components submit and maintain compliance with their JTA
implementation plans.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Interoperability, did not specifically comment on this
recommendation. However, he expected the Architecture Integration Council and
the Architecture Integration Group (which would replace the current Architecture
Coordination Council) to act upon the recommendations contained in the report.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director, Architecture and Interoperability,
concurred, stating that draft DoD Instruction 4630.8, “Procedures for
Interoperability and Supportability of Information Technology and National
Security Systems,” which was in formal coordination, requires DoD Components
to submit JTA implementation plans to the DoD Chief Information Officer for
review. The Director additionally stated that the Directorate for Architecture and
Interoperability, Office of the Deputy Chief Information Officer, will conduct
implementation plan reviews. The Director anticipated completing corrective
action on this recommendation by October 1, 2001.

Joint Chiefs of Staff Director for Command, Control, Communications and
Computers Comments. The Vice Director, Joint Staff, nonconcurred, stating
that the Policy Office Memorandum “DoD Joint Technical Architecture (JTA)




                                      17
Version 3.0,” November 29, 1999, mandates implementation plan submission and
identifies conditions under which DoD Components would not need to submit JTA
implementation plans.

Audit Response. The comments from the Director, Architecture and
Interoperability, were responsive. If implemented, his planned actions will
provide control procedures and requirements for ensuring that DoD Components
submit and maintain compliance with their JTA Implementation plans. The
comments from the Vice Director, Joint Staff, were not responsive. The Policy
Offices’ memorandum did not provide for implementation plan reviews and, as
evidenced in the finding, the Policy Offices were not reviewing the plans and
providing feedback to the DoD Components on the completeness of the plans.

No further comments on this recommendation are necessary as the Director,
Architecture and Interoperability, has taken responsibility for implementing the
recommendation by October 1, 2001.

       4. Reporting the status of DoD Component plans for implementing
the Joint Technical Architecture to the Under Secretary of Defense for
Acquisition, Technology, and Logistics; the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence); and the Joint Chiefs
of Staff Director for Command, Control, Communications and Computers.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Interoperability, did not specifically comment on the
recommendation. However, he expected the Architecture Integration Council and
the Architecture Integration Group (which would replace the current Architecture
Coordination Council) to act upon the recommendations contained in the report.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director, Architecture and Interoperability,
concurred, stating that his office would establish a reporting mechanism for DoD
Components to provide JTA implementation status to the Under Secretary of
Defense for Acquisition, Technology, and Logistics; the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence); the DoD Chief
Information Officer, and the Joint Chiefs of Staff Director for Command,
Control, Communications and Computers. The Director anticipated completing
corrective action on this recommendation by October 1, 2001.

Joint Chiefs of Staff Director for Command, Control, Communications and
Computers Comments. The Vice Director, Joint Staff, nonconcurred, stating
that implementing the recommendation would be a duplicative effort because JTA
implementation requirements are documented in DoD Regulation 5000.2-R.

Audit Response. The comments from the Director, Architecture and
Interoperability, were responsive. The comments from the Vice Director, Joint
Staff, were not responsive. The recommendation is not duplicative because DoD
Regulation 5000.2-R does not include requirements for the DoD Components to
report the status of their plans for implementing the Joint Technical Architecture.



                                      18
No further comments on this recommendation are necessary as the Director,
Architecture and Interoperability, has taken responsibility for implementing the
recommendation by October 1, 2001.




                                     19
B. Use of the Joint Technical
   Architecture Requirements in
   Weapon System Acquisition
   Documentation
Program managers and DoD Components were not held accountable in
the requirements generation process and at acquisition milestone decision
points for including JTA standards requirements in key acquisition
planning documents. Of the 43 major Defense acquisition program
managers responding to our survey whose programs were in the program
definition and risk reduction or the engineering and manufacturing
development phases of the acquisition process, as of June 30, 2000:

   •   thirty-nine program managers or their DoD Components did not
       insert JTA or JTA-compliant DoD Component technical
       architecture standards requirements into one or more key
       acquisition planning documents, and

   •   ten program managers did not require contractors to use JTA
       standards in supporting the design of their system or system
       upgrade.

Program managers and DoD Components did not include use of JTA
standards in acquisition planning documents because the program
managers and DoD Components were not submitting or were late in
submitting the documents for Defense Information System Agency
review as part of the requirements generation process that occurs before
the milestone decision points. The Agency was then unable to timely
advise program managers, DoD Components, milestone decision
authorities, and the Joint Chiefs of Staff on program compliance with
JTA standards requirements. Also, while survey responses indicated that
Component Acquisition Executives and Program Executive Officers
reviewed program manager use of JTA standards, their reviews had not
resulted in consistent inclusion of JTA standards requirements in key
acquisition planning documents. Additionally, program managers and
DoD Components were not complying with updates to the JTA standards
requirements because the Policy Offices were still incorporating JTA
Version 2.0 requirements in DoD policy documents and developing
guidance to provide users with a more efficient means to determine
which JTA standards and protocols applied to their systems. As a result,
the DoD will not fully realize the JTA objective of improving and
facilitating the ability of its systems to support joint and combined
operations in an overall investment strategy.




                            20
Joint Technical Architecture Policy
     The Policy Offices provided DoD Components with direction for implementing
     the standards contained in the JTA in weapon system requirements and
     acquisition documentation through the three memorandums discussed in
     finding A. The Under Secretary of Defense for Acquisition, Technology, and
     Logistics incorporated the JTA requirements for JTA Version 1.0 in
     DoD Regulation 5000.2-R,”Mandatory Procedures for Major Defense
     Acquisition Programs (MDAPs) and Major Automated Information Systems
     (MAIS) Acquisition Programs,” March 15, 1996.

Survey of Acquisition Program Manager and DoD Component
  Use of the JTA
     Program managers and DoD Components were not held accountable in the
     requirements generation process and at milestone decision points for including
     JTA standards requirements in key acquisition planning documents. We
     surveyed responses from program managers for 43 major Defense acquisition
     programs that were in the program definition and risk reduction or engineering
     and manufacturing development phases of the acquisition process, as of
     June 30, 2000, to determine how many DoD Components and program
     managers inserted JTA or JTA-compliant technical architecture standards
     requirements into the following four key acquisition documents: the mission
     needs statement, the operational requirements document, the request for
     proposal, and the contract statement of work. Appendix F discusses the general
     purpose of each of the four acquisition planning documents, the organization
     responsibilities for preparing the document , and the document’s relationship to
     program manager use of JTA standards. As discussed in Appendix F, the DoD
     Components have responsibility for preparing the initial draft versions of the
     mission needs statements and the operational requirements documents, while the
     program managers prepare the request for proposals and the contract statements
     of work.

     Requirements in Key Acquisition Planning Documents. The survey results
     showed that program managers and DoD Components did not routinely insert
     JTA standards in key acquisition planning documents to use in the system
     design. In the following table of key acquisition planning documents, we show
     the number of program managers, out of the 43 providing survey responses,
     who indicated that they or their DoD Component had not inserted language on
     the use of technical architecture standards for JTA or JTA-compliant
     Component requirements into each document, The table also shows the number
     of program managers who provided a response to the survey question regarding
     each document.




                                        21
Table 3. Programs Not Including JTA Language in Acquisition Documents

                                              Number of Responding
                                              Programs Not Including
       Acquisition Document                       JTA Language


    Mission Needs Statement                    (39 of 42 programs)

    Operational Requirements Document          (19 of 42 programs)

    Requests for Proposal                      (24 of 42 programs)

    Contract Statement of Work                 (26 of 42 programs)

We reviewed survey responses from the 13 program managers who provided
explanations for their programs not having language concerning the required use
of JTA or JTA-compliant Component technical architecture standards
requirements in the mission needs statement and the operational requirements
document. The most common explanation, which 6 of the 13 program
managers cited, was that their development contract (and therefore the mission
needs statement and the operational requirements document) predated the JTA.
However, this reason is not valid, based on DoD policy, because the Policy
Offices, in their memorandums, “Implementation of the DoD Technical
Architecture,” August 22, 1996 (Version 1.0) and “DoD Joint Technical
Architecture (JTA) Version 2.0,” November 30, 1998, stated that
implementation of Versions 1.0 and 2.0 was effective immediately for all
emerging programs or for modification to existing programs unless the
Component Acquisition Executive granted a waiver based on cost, schedule, or
performance impacts of using JTA standards. Other reasons program managers
gave for their DoD Component not inserting JTA standards requirements in the
mission needs statement and the operational requirements document included no
system requirement for interoperability (three program managers), documents
not yet completed (one program manager), and other reasons (three program
managers). The other reasons included that the system development contract
was not based on Federal Acquisition Regulation requirements, it complied with
system design requirements of non-DoD agencies, and it already contained a
requirement for the contractor to use JTA standards. Program manager
explanations for not inserting JTA standards requirements into the requests for
proposals and contract statements of work are discussed below.

Contractors Using Technical Architecture Requirements in the System
Design. Correspondingly, and as a direct result of the above emphasis of JTA
standards requirements in the key acquisition planning documents, the




                                  22
    43 program managers indicated that their contractors used the JTA or
    JTA-compliant Component technical architecture standards in the design of their
    system or system upgrades as follows:

       •   ten contractors were not using JTA or JTA-compliant Component
           technical architecture standards,

       •   ten contractors were using JTA Version 3.0 requirements,

       •   twelve contractors were using JTA Versions 1.0 or 2.0 requirements,

       •   five contractors were using JTA-compliant Component technical
           architecture standards, and
       •   six contractors were using JTA and JTA-compliant Component technical
           architecture standards.

    We reviewed survey responses from the 10 program managers who provided
    explanations for their programs not having language concerning the required use
    of JTA standards in requests for proposals and contract statements of work.
    Like the mission needs statement and the operational requirements documents,
    the most common reason, which 3 of 10 managers cited, was that their
    development contract predated the JTA. As discussed above, the timing of the
    introduction of JTA does not exempt program managers from the requirement to
    use JTA standards. Three program managers stated that their system was a
    subsection of a larger program and that interoperability was the responsibility of
    the program manager for the larger program. The other four program managers
    cited different reasons for the contractors not using JTA standards. These other
    reasons included the JTA exemption was granted in the Component JTA
    Implementation Plan, the requirements documents did not require a technical
    architecture, the system architecture was not yet defined, and the contract was
    not based on Federal Acquisition Regulation requirements.

Mandating Use of the JTA in the Acquisition Planning and
  Review Process
    Program managers and DoD Components were not held accountable in the
    requirements generation process and at milestone decision points for including
    JTA standards requirements in key acquisition planning documents because
    program managers and DoD Components were not submitting or were late in
    submitting the documents for Defense Information Systems Agency (Agency)
    review as part of the requirements generation process that occurs before the
    milestone decision points. The Agency was then unable to advise the milestone
    decision authorities on program manager and DoD Component compliance with
    JTA standards requirements. Also, while survey responses indicated that
    Component Acquisition Executives and Program Executive Officers reviewed
    program manager use of JTA standards, their reviews had not resulted in
    consistent inclusion of JTA standards requirements in key acquisition planning
    documents. Additionally, program managers were not complying with updates


                                        23
to the JTA standards requirements because the Policy Offices were still
incorporating JTA Version 2.0 requirements into DoD policy documents and
developing guidance to provide users with a more efficient way to determine
which JTA standards and protocols applied to their systems.

Chairman, Joint Chiefs of Staff, and Defense Information Systems Agency
Review. The Chairman of the Joint Chiefs of Staff (acting through his Staff
Director for Command, Control, Communications and Computers) and the
Agency are responsible for reviewing the draft mission needs statements and
operational requirements documents that the DoD Components submit as part of
the requirements generation process, defined in Chairman Joint Chiefs of Staff
Instruction (CJCSI) 3170.01A, “Requirements Generation System,”
August 10, 1999. In CJCSI 6212.01B, “Interoperability and Supportability of
National Security Systems, and Information Technology Systems,”
May 8, 2000, the Chairman, Joint Chiefs of Staff, provides specific guidance
for review of interoperability requirements in the mission needs statement and
the operational requirements documents. This Instruction requires that the Staff
Director for Command, Control, Communications and Computers and the
Agency review program mission needs statements, operational requirements
documents, and other program documentation to assess the suitability of
standards identified in the documents. The Staff Director’s review is
accomplished within prescribed timeframes after the documents are submitted
for review. To facilitate the Staff Director’s review, the Instruction includes a
checklist of assessment criteria. The assessment criteria require:

   •   the mission needs statement to include a requirement that the system
       developers use applicable standards from the JTA to ensure maximum
       interoperability, and

   •   the operational requirements document to require the system to comply
       with applicable information technology standards contained in the current
       JTA.

DoD Instruction 4630.8, “Procedures for Compatibility, Interoperability, and
Integration of Command, Control, Communications, and Intelligence (C3I)
Systems,” November 18, 1992, also requires the Agency to perform
interoperability assessments of mission needs statements and operational
requirements documents. During the audit, the DoD Instruction 4630.8 was
being revised; however, the draft revision dated October 15, 2000, maintained a
requirement for the Agency to assess the suitability of standards identified in
requirements documents.

The Joint Chiefs of Staff and the Agency could not consistently accomplish the
reviews of the acquisition planning documents before milestone decision reviews
because program managers and DoD Components either did not submit program
documents or submitted them too late (close to acquisition milestone review).
Although both CJCS Instruction 6212.01B and DoD Instruction 4630.8 provide
calendar day standards for Joint Chiefs of Staff and Agency review of
acquisition planning documents, they do not explicitly provide time frames,
prior to milestone or other reviews, for DoD Components to forward draft
documents for review. Additionally, the Joint Interoperability and Engineering

                                   24
Organization and Joint Interoperability Test Command Circular 9002,
“Requirements Assessment and Interoperability Certification of C4I and AIS
Equipment and Systems,” January 23, 1995, does not address use of the JTA
standards. Circular 9002, which predates JTA implementation, implements
policy and defines responsibilities for DoD requirements certification,
interoperability testing, and system certification. Further, Circular 9002
describes the Agency’s processes for determining the extent to which systems’
requirements documents, such as the mission needs statement and the
operational requirements documents, satisfy DoD policy for compatibility,
interoperability, and integration. Circular 9002 also provides guidance for
warfighter preparation of requirements documentation.

For the 17 major Defense acquisition programs that entered the program
definition and risk reduction phase or the engineering and manufacturing
development phase of the acquisition process between March 1996 and
December 1999, the Agency did not perform a review of the two requirements
documents for JTA standards compliance before the milestone decision reviews
as follows

   •   Mission needs statements - 15 programs

   •   Operational requirements documents - 4 programs

The Agency’s or other competent DoD office’s reviews of key requirements
documents for JTA standards compliance and forwarding of review results to
the applicable overarching integrated product teams is critical to enforcement of
JTA standards requirements. With this information, the product teams can
advise the milestone decision authorities on whether the DoD Components and
program managers complied with JTA standards requirements in the mission
needs statement, the operational requirements document, the request for
proposal, and the contract statement of work before decisions are made at
acquisition milestone reviews.

Component Acquisition Executive and Program Executive Officer Review.
Responses from the Component Acquisition Executives and Program Executive
Officers to survey questionnaires indicated that they did review program
manager use of JTA standards. Specifically, all 15 Program Executive Officers
responding stated that they performed some review of program manager use of
JTA standards. Ten of the 15 Program Executive Officers stated that they
reviewed program manager use of JTA standards as part of the milestone
reviews for acquisition programs, and 9 of the 10 Program Executive Officers
stated that they also performed interim reviews for JTA standards use between
program milestone decision points. Of the five program executive officers who
stated that they did not review program manager use of the JTA standards as
part of program milestone reviews, four stated that they did review program
manager use of the JTA standards between program milestones. A Component
Acquisition Executive stated that he reviewed program manager use of JTA
standards as part of milestone reviews for acquisition programs, periodic
progress reviews between milestone decision points, and other program reviews.
However, reviews by Component Acquisition Executives and Program
Executive Officers of mission needs statements, operational requirements


                                    25
documents, requests for proposals, and contract statements of work did not
ensure that the acquisition planning documents contained JTA standards
requirements.

Because CJCSI 6212.01B requires the Staff Director for Command, Control,
Communications and Computers, Joint Chiefs of Staff, and the Agency to
review mission needs statements and operational requirements documents in
support of the Joint Chiefs of Staff, the Component Acquisition Executives and
Program Executive Officers should place greater emphasis on reviewing
requests for proposals and contract statements of work for inclusion of JTA
standards specified in mission needs statements and operational requirements
documents. Their review of requests for proposal and the contract statements of
work for JTA compliance before milestone decision reviews is critical because
those documents guide the contractor in the system design process.
Updating Policy. The Policy Offices were still incorporating JTA Version 2.0
requirements from November 1998 into DoD policy documents. During our
audit, the Policy Offices were working on or had recently completed policy and
guidance document updates to address program manager and DoD Component
use of JTA standards. Policy document updates include:

   •   The May 11, 1999, revision of DoD Regulation 5000.2-R contains JTA
       requirements for JTA Version 1.0 from the Policy Offices’ memorandum
       issued in August 1996. The Regulation states that the JTA applies to all
       emerging DoD command, control, communication, computer, and
       intelligence systems; upgrades to these systems; and interfaces of these
       systems to other key assets, such as weapons and office automation
       systems. The Policy Offices’ memorandum on JTA Version 2.0, which
       was issued in November 1998, broadened the JTA applicability to all
       emerging systems, or changes to an existing capability that produces,
       uses, or exchanges information in any form electronically; crosses a
       functional or DoD Component boundary; and gives the warfighter or
       DoD decisionmaker an operational capability. A steering group,
       co-chaired by representatives from the Offices of Under Secretary of
       Defense for Acquisition, Technology, and Logistics and the Assistant
       Secretary of Defense (Command, Control, Communications, and
       Intelligence) during 1998 and 1999, recommended revising the
       regulation to include JTA Version 2.0 requirements.

       The January 4, 2001, interim revision to DoD Regulation 5000.2-R
       updated sections on interoperability, systems engineering, design
       considerations, and standardization to fully implement the broadened
       applicability of the JTA Version 2.0 discussed in finding A.
       Additionally, the revised regulation added a section on Command,
       Control, Communication, Computers, and Intelligence Support that
       includes the requirement for program managers to prepare Command,
       Control, Communication, Computers, and Intelligence Support Plans
       (C4I Support Plans), which DoD Components are to review at each
       acquisition milestone. The C4I Support Plans are to describe system
       dependencies and interfaces in sufficient detail to enable test planning for
       the interoperability key performance parameters defined in the

                                    26
    operational requirements document and for information exchange
    requirements. C4I Support Plan requirements include program
    identification of applicable technical standards for information exchange
    requirements based upon the JTA and are required for National Security
    Systems and Information Technology segments of programs in all
    acquisition categories.

•   DoD Manual 4120.24-M, “Defense Standardization Program (DSP)
    Policies and Procedures,” March 2000, provides policy and procedure
    for implementing the Defense Standardization Program as outlined in
    DoD Instruction 4120.24, “Defense Standardization Program,” June 18,
    1998. DoD Manual 4120.24-M includes the requirement for program
    offices to use JTA standards for all new or upgraded systems.

•   DoD Instruction 4630.8, “Procedures for Compatibility, Interoperability,
    and Integration of Command, Control, Communications, and Intelligence
    (C3I) Systems,” November 18, 1992, predates requirements for using the
    JTA in the systems acquisition process. In a draft update of the
    Instruction dated October 15, 2000, the Office of the Assistant Secretary
    of Defense (Command, Control, Communications, and Intelligence)
    inserted the following requirements for use of the JTA:

       − The DoD Chief Information Officer [the Assistant Secretary of
         Defense (Command, Control, Communications, and Intelligence)]
         will review and approve DoD Component JTA implementation
         plans;

       − The Heads of DoD Components shall establish administrative
         procedures for consideration of JTA waiver requests. Program
         waiver requests shall identify resulting cost, schedule,
         performance, and potential operational impacts if a waiver is not
         granted. DoD Components will participate in the development of
         JTA standards, develop JTA implementation plans, and enforce
         JTA implementation through program reviews for compliance
         assurance and programming and budgeting resources.

       − The Defense Information Systems Agency will verify that
         requirements in program mission needs statements and
         operational requirements documents are consistent with
         appropriate JTA standards.

•   The Under Secretary of Defense for Acquisition, Technology, and
    Logistics had not agreed to the Office of the Assistant Secretary of
    Defense’s draft update to DoD Instruction 4630.8. The Director of
    Interoperability, within the Office of the Under Secretary, stated that the
    Architecture Coordination Council, which is co-chaired by the senior
    officials of the Policy Offices, should direct JTA roles and
    responsibilities within DoD and not the Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence). The Policy




                                 27
       Offices formed the Architecture Coordination Council in January 1997 to
       establish comprehensive JTA architectural guidance and to synchronize
       ongoing JTA architecture work.

   •   The Chairman of the Joint Chiefs of Staff revised CJCSI 3170.01A,
       “Requirements Generation Systems,” in August 1999, to require that
       DoD Components’ operational requirements documents state that the
       system must comply with applicable information technology standards in
       the JTA and include a key performance parameter for interoperability.
       The revision also requires that the Joint Chiefs of Staff Directorate for
       Command, Control, Communications and Computers certify that mission
       needs statements, operational requirements documents, and other
       planning documents comply with interoperability policy and standards.
       Like the revisions to DoD Regulation 5000.2-R, those changes resulted
       from the efforts of the 1998 and 1999 steering group.

   •   The Chairman of the Joint Chiefs of Staff issued CJCSI 6212.01B on
       May 8, 2000, which requires that the DoD Chief Information Officer
       ensure the interoperability of national security and information
       technology systems. The Instruction provides checklists that the Agency
       used to review the contents of mission needs statements and operational
       requirements documents to determine whether the documents included
       the requirement for systems to comply with standards contained in the
       JTA.

If fully adopted in the acquisition and warfighting communities, the policy
changes will reinforce the mandatory use of JTA standards to acquisition
program managers and DoD Components.

Guidance on Use of the JTA. Of the 43 major Defense acquisition program
managers responding to our survey that were in the program definition and risk
reduction or the engineering and manufacturing development phases of the
acquisition process, 35 responded to our survey question on experience in using
JTA standards. Of the 35 program managers responding, 12 stated that the
Policy Offices needed to modify the JTA documentation to provide users with a
more efficient means for obtaining a user-specific profile of the JTA and for
determining which standards and protocols applied to their system.
Additionally, of the 36 program managers responding to our survey question on
the degree of difficulty in identifying and selecting applicable JTA standards and
protocols for use in systems design, only 8 program managers responded that it
was easy to identify and select standards, 25 said moderate effort was required,
and 3 said selection was very difficult. During the audit, the Office of the
Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) was developing a JTA user guide and a Virtual JTA, which is a
more automated version of the JTA 3.0., to provide program managers with
more user-friendly guidance for using the JTA. In the draft version of the
“DoD Joint Technical Architecture User Guide,” April 11, 2000, the Office of
the Assistant Secretary provided general information and text for specifying use
of JTA standards in requests for proposals and contract statements of work.
However, the planned users’ guide did not provide template language for the
DoD Component to use in preparing the mission needs statement and the

                                    28
    operational requirements document. As part of developing the Virtual JTA, the
    Office of the Assistant Secretary plans to include a capability designated as a
    “compliance management planner.” The compliance management planner is an
    automated capability that will help DoD Components and program managers to
    more easily identify and select JTA standards applicable to their systems.

Summary
    As emphasized in the JTA Version 3.0 implementation memorandum, the JTA
    mandates interoperability standards and guidelines for systems development and
    acquisition to facilitate joint and coalition force operations and provide the
    technical foundation for interoperability among all tactical, strategic, and
    combat support operations. Without consistent program manager and DoD
    Component use of JTA standards requirements, and without effective and
    efficient architecture development policies and procedures in designing systems,
    the DoD will not fully realize the JTA objective to improve and facilitate the
    ability of its systems to support joint and combined operations in an overall
    investment strategy.

Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and audit response are in
    Appendix G.

Recommendations Management Comments, and Audit
 Response

    Redirected and Revised Recommendations. As a result of management
    comments, we redirected Recommendation B.1. to the Joint Chiefs of Staff
    Director for Command, Control, Communications and Computers, because his
    office oversees the requirements generation process. We also revised
    Recommendation B.2. to recommend that the Under Secretary of Defense for
    Acquisition, Technology, and Logistics establish a process for reviewing
    requests for proposals and contract statements to determine whether they include
    requirements for use of the JTA standards, rather than recommending assigning
    document review responsibility to a particular organization.

    B.1. We recommend that the Joint Chiefs of Staff Director for Command,
    Control, Communications and Computers, in coordination with the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence), establish time frames for DoD Components to input draft and
    final versions of mission needs statements and operational requirements
    documents to the Defense Information Systems Agency to enable it to review
    the adequacy of the DoD Component’s planned use of the DoD Joint
    Technical Architecture standards as required in Chairman, Joint Chiefs of



                                       29
Staff Instruction 6212.01B, “Interoperability and Supportability of National
Security Systems, and Information Technology Systems,” May 8, 2000,
before planned milestone decision reviews.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Interoperability, responding for the Under
Secretary, partially concurred, but suggested that we redirect the
recommendation to the Joint Chiefs of Staff in coordination with the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence),
because the Joint Staff oversees the requirements generation process, not the
acquisition organizations.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director, Architecture and Interoperability,
responding for the Assistant Secretary, concurred, stating that his office would
coordinate with the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics, and the Joint Chiefs of Staff Director for Command,
Control, Communications and Computers to establish required timelines for
DoD Components to submit draft operational requirements documents and C4I
Support Plans to the Joint Staff for certification. The Director stated that, based
on the timelines established in Chairman Joint Chiefs of Staff Instruction
6212.01B for reviewing operational requirements documents and C4I Support
Plans, his office will recommend that the DoD Components submit these
documents 180 calendar days before planned milestone decision reviews. The
Director added the C4I Support Plans into planned corrective actions but did not
include the mission needs statement because he believed that a statement of
planned use of the JTA standards in requirements documents is appropriate only
for the operational requirements document and the C4I Support Plan.

Joint Chiefs of Staff Director for Command, Control, Communications and
Computers Comments. Although not required to comment, the Vice Director,
Joint Staff, stated that the requirements process is the responsibility of the
Chairman, Joint Chiefs of Staff, and that the Defense Information Systems
Agency already reviews requirements documents before milestone approval as
required by the DoD 5000 series, CJCSI 3170.01A, and CJCSI 6212.01B, as a
part of the review and certification process for requirements documents.

Audit Response. In response to the management comments, we redirected the
recommendation to the Joint Chiefs of Staff Director for Command, Control,
Communications, and Computers, in coordination with the Assistant Secretary
of Defense (Command, Control, Communications and Intelligence), because the
Joint Staff oversees the requirements generation process.

The comments from the Director, Architecture and Interoperability, were
responsive. We agree with the Director’s assertion that having JTA language in
the C4I Support Plan as well as in the operational requirements document is
important for effective DoD Component implementation of applicable JTA
standards in designing weapon systems. The Director needs to coordinate with
the Office of the Joint Chiefs of Staff Director for Command, Control,
Communications and Computers if he believes that language requiring program
use of the JTA standards would not be necessary in the Mission Needs

                                    30
Statement. CJCS Instruction 6212.01B requires that the Mission Needs
Statement include a requirement for application of applicable standards from the
JTA.

The comments from the Vice Director, Joint Staff, did not address the issue
presented in the recommendation, which was establishing time frames for DoD
Components to input draft and final versions of mission needs statements and
operational requirements documents to the Defense Information Systems Agency
to enable it to review the adequacy of the DoD Component’s planned use of the
DoD Joint Technical Architecture as required in Chairman, Joint Chiefs of Staff
Instruction 6212.01B.

In response to the final report, we request that the Joint Chiefs of Staff Director
for Command, Control, Communications and Computers and the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence)
provide a coordinated response that provides an agreed course of action for
establishing time frames for DoD Components to input draft and final versions
of mission needs statements and operational requirements documents to the
Defense Information Systems Agency to enable it to review the adequacy of the
DoD Component’s planned use of the DoD Joint Technical Architecture.

B.2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics establish a process for reviewing requests for
proposals and contract statements of work to verify that requirements for
use of the DoD Joint Technical Architecture standards established in the
operational requirements document are translated into clear contractual
requirements with the additional requirement for the contractor to identify
instances where cost, schedule, or performance impacts may preclude use of
Joint Technical Architecture mandated standards.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Interoperability, partially concurred, stating that we
should revise the draft report recommendation to recommend that the Under
Secretary establish a process to review requests for proposals and contract
statements to determine whether they include requirements for use of the JTA, if
specified in program operational requirements document, instead of
recommending that the overarching integrated product teams perform the
review. The Director explained that this revision would allow his office the
flexibility to respond in a manner that would meet the intent of the
recommendation without dictating the specific organizational approach. He
further stated that assigning the review responsibility to an overarching
integrated product team may not be the optimum solution or be consistent with
DoD Acquisition Reform, which seeks to delegate responsibility to the lowest
level.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. Although not required to comment, the Director,
Architecture and Interoperability, concurred, stating that the Office of the
Assistant Secretary would provide appropriate representatives at the Weapon
Systems Overarching Integrated Product Teams to assist in the assessment of
requests for proposals and contract statements of work to ensure that these


                                    31
documents comply with the JTA. The representatives will verify that standards
profiles, drawn primarily from the JTA, were incorporated into the technical
view of the integrated system architecture, as appropriate, and translated into
clear contractual requirements for system acquisition and procurements.

Joint Chiefs of Staff Director for Command, Control, Communications and
Computers Comments. Although not required to comment, the Vice Director,
Joint Staff, stated that procedures for reviewing requests for proposals and
statements of work were well documented within DoD acquisition organizations.
He stated that the placing another organization into the review process will
further slow down the current acquisition review process.

Audit Response. The comments from the Director, Interoperability, were
responsive. In response to the Director’s comments, we revised the
recommendation as suggested.

The comment from the Vice Director, Joint Staff, that procedures for reviewing
requests for proposals and statements of work were well documented within
DoD acquisition organizations is general in nature and did not address the need
for establishing a process for reviewing requests for proposals and contract
statements of work to verify that requirements for use of the JTA standards
established in the operational requirements document were translated into clear
contractual requirements. We addressed the Vice Director’s concern about
placing another organization into the acquisition review process through our
revision of the recommendation to focus on the need for a review process rather
than inserting another organization into the review process.

B.3. We recommend that the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence):

       a. Direct the Defense Information Systems Agency to update the
Joint Interoperability and Engineering Organization and Joint
Interoperability Test Command Circular 9002, “Requirements Assessment
and Interoperability Certification of C4I and AIS Equipment and Systems,”
January 23, 1995, to address use of the DoD Joint Technical Architecture
and for determining that mission needs statements and operational
requirements documents satisfy DoD policy for usage of the Joint Technical
Architecture in system development efforts.

       b. Include in the planned “DoD Joint Technical Architecture User
Guide” the suggested general template language to assist DoD Components
and program managers in implementing DoD Joint Technical Architecture
requirements in the mission needs statement and the operational
requirements document.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Director, Architecture and Interoperability,
concurred, stating that the Deputy Chief Information Officer will direct the
Defense Information Systems Agency to update the Joint Interoperability and
Engineering Organization and Joint Interoperability Test Command
Circular 9002 to incorporate the use of the JTA and mission area integrated

                                   32
architectures and to include a process and procedures for verifying that
requirements documents, including operational requirements documents and C4I
Support Plans, comply with DoD policy for use of JTA standards in system
development and acquisition efforts. The Director stated that the Deputy Chief
Information Officer will direct the Defense Information Systems Agency to align
the content of Circular 9002 with the most recent JTA-related policy in the
DoD 5000 and 4630 series directives as well as in CJCSI 3170.01A and
CJCSI 6212.01B. The Director further stated that the Deputy Chief Information
Officer would request that the Defense Information Systems Agency complete
the revision of Circular 9002 by December 31, 2001. With regard to the
planned “DoD Joint Technical Architecture User Guide,” the Director stated
that the Deputy Chief Information Officer would direct the Defense Information
Systems Agency to include a general template in the planned guide for
incorporating JTA standards use in requirements documents, including
operational requirements documents and C4I Support Plans, and to publish the
User Guide by the end of 2001.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. Although not required to comment, the Director, Interoperability,
suggested that it would be more appropriate to change “Joint Technical
Architecture” to “Information Interoperability” in the title of the planned “DoD
Joint Technical Architecture User Guide” since the JTA is only one method for
achieving interoperability.

Joint Chiefs of Staff Director for Command, Control, Communications and
Computers Comments. Although not required to comment, the Vice Director,
Joint Staff, stated that Circular 9002 is an internal document of the Defense
Information Systems Agency, and that CJCS Instruction 6212.01 mandates that
the Joint Interoperability Test Command test standards based products for
compliance with relevant JTA standards and for interoperability with relevant
National Security Systems and Information Technology Systems. The Vice
Director also stated that the Under Secretary of Defense for Acquisition,
Technology, and Logistics, rather than the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence), should prepare the
planned “DoD Joint Technical Architecture User Guide” because the guide is
needed for program managers.

Audit Response. The comments from the Director, Architecture and
Interoperability, were responsive. His suggestion to change “Joint Technical
Architecture” to “Information Interoperability” in the title of the planned “DoD
Joint Technical Architecture User Guide” would not be more appropriate since
the document specifically pertains to program manager use of JTA standards.
Comments of the Vice Director, Joint Staff, that the Circular 9002 did not need
updating because it is an internal document to the Defense Information Systems
Agency and that necessary JTA-related policy already exists in CJCS
Instruction 6212.01 are not correct. The internal policies of the Defense
Information System Command must be consistent with, and supplement, higher
level external policy as required. Therefore, Circular 9002 language should be
current regarding policy relating to the JTA. With regard to preparing the
users’ guide, the Office of the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence), through the Defense Information


                                   33
Systems Agency, has already began preparation of the guide. The users’ guide
will have guidance, such as recommended text for specifying program use of
JTA standards in requests for proposals and contract statements of work, which
CJCS Instruction 6212.01 does not provide. The Office of the Assistant
Secretary and the Defense Information Systems Agency are the appropriate
offices for preparing the guide because of their policy and technical review
responsibilities on the use of the JTA.




                                  34
            C. Requesting Waivers to Using
               Standards in the Joint Technical
               Architecture
            Program managers were not submitting waiver requests to DoD
            Component and Office of the Secretary of Defense authorities when
            using interface standards other than those mandated by the JTA for
            weapon systems design. Thirteen of the 15 program managers for major
            Defense acquisition programs in the program definition and risk
            reduction or the engineering and manufacturing development phases
            responding to our survey did not submit waiver requests as required
            when using or planning to use alternate standards. Nonsubmission of
            waiver requests resulted from program managers not complying with
            established policy for submitting waiver requests when deviating from
            using JTA standards and milestone decision authorities not enforcing
            JTA standards requirements as discussed in finding B. Also, the Policy
            Offices did not provide detailed guidelines to program managers on how
            to determine and document instances where cost, schedule, and
            performance considerations justified submitting a waiver request for
            specific JTA standards in the system design process. As a result,
            milestone decision authorities will not become aware of potential system
            interoperability shortfalls until programs are seeking interoperability
            certification before requesting approval for full-rate production. At this
            late stage in the program development process, milestone decision
            authorities have few options because of the cost and schedule impacts
            that will occur from implementing JTA standards requirements in the
            design at that point in the acquisition process.

Joint Technical Architecture Waiver Policy
     In the August 22, 1996, memorandum that implemented Version 1.0 of the
     JTA, DoD Components and Agency Acquisition Executives were given
     authority to grant waivers to program manager compliance with the JTA, with
     the concurrence of the Under Secretary of Defense for Acquisition, Technology,
     and Logistics and the Assistant Secretary of Defense (Command, Control,
     Communications, and Intelligence). In implementing JTA Version 2.0 in
     November 1998, the Under Secretary, the Assistant Secretary, and the Joint
     Chiefs of Staff Director for Command, Control, Communications, and
     Computers provided further guidance on waiver requirements to better assure
     that program manager waiver requests were properly and timely considered and
     to preclude granting duplicative waivers. Specifically, the November 1998
     guidance required:

        •   waiver requests to include the cost, schedule, and performance impacts
            that will occur if waiver of JTA requirements is not granted and
            acknowledge any resulting operational limitations.



                                        35
       •   the DoD Components responsible for systemic implementation of
           specific groups of JTA standards, such as missile defense standards, to
           review requests for waiver from use of these standards and forward those
           waivers they approve to the Under Secretary and the Assistant Secretary
           for concurrence.

       •   DoD Components and Agency Acquisition Executives retain approval
           authority for waivers to those standards not assigned to a specific DoD
           Component for systemic implementation and forward those waivers they
           approve to the Under Secretary and the Assistant Secretary for
           concurrence.

    The requirement that the DoD Components and Agency Acquisition Executives
    had the authority to grant waivers to the standards in the JTA, with the
    concurrence of the Under Secretary and the Assistant Secretary, was included in
    Change 3 to DoD Regulation 5000.2-R, March 23, 1998.

    The Under Secretary of Defense for Acquisition, Technology, and Logistics and
    the Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) were revising the waiver process in a revision to DoD
    Regulation 5000.2-R. The January 4, 2001, revision to the Regulation requires
    that, if program use of a JTA-mandated standard will negatively impact cost,
    schedule, or performance, a Component Acquisition Executive or cognizant
    Office of the Secretary of Defense Principal Staff Assistant may grant a waiver.
    For mission-critical or mission-essential programs, DoD Components shall
    submit granted waivers through the Assistant Secretary to the Under Secretary
    for review and concurrence. To assure proper and timely Under Secretary and
    Assistant Secretary consideration, all waiver requests shall state the cost,
    schedule, and performance impacts that will occur if the waiver request is not
    granted and any resulting operational limitations.

Submission of Waiver Requests
    In response to our program manager survey question concerning whether
    program managers submitted waiver requests when using or planning to use
    standards other than standards mandated by the JTA, we received responses
    from 15 of the 43 program managers whose major Defense acquisition programs
    were in the program definition and risk reduction or the engineering and
    manufacturing development acquisition phases, as of June 30, 2000. Twenty-
    eight program managers did not respond to the question. Of the 15 program
    managers responding:

       •   thirteen used or were planning to use an alternate standard or standards
           but did not submit a waiver request,

       •   two submitted waiver requests to Component Acquisition Executives and
           received approval to use alternate standards.




                                       36
Following Waiver Policy
    The nonsubmission of waiver requests resulted from program managers not
    complying with the requirement in DoD Regulation 5000.2-R to request a
    waiver when deviating from using JTA standards, as discussed in finding B, and
    the milestone decision authorities not enforcing JTA standards requirements.
    Also, the Policy Offices did not provide guidance to program managers on how
    to determine and document instances where cost, schedule, and performance
    considerations justified submitting a waiver request to specific JTA standards in
    the system design process.

    Applying the JTA in Weapon System Development. As noted in finding B,
    24 of 42 acquisition program managers responding to our survey did not include
    language establishing use of JTA standards as a requirement in requests for
    proposals, and 26 of the 42 program managers did not include JTA language in
    contract statements of work. Before excluding the requirement for using JTA
    standards from those documents, the program managers should have submitted a
    waiver request to their Component Acquisition Executive justifying not applying
    the requirement. All of the program managers should have mandated use of the
    JTA standards unless they or their contractor justified instances where cost,
    schedule, or performance impacted the use of JTA mandated standards.

    Basis for Submitting a Waiver Request. In responding to our survey
    questionnaire, two program managers recommended that program managers be
    provided additional guidance on justifying the need for a waiver to JTA
    standards requirements. Specifically, these program managers stated that the
    Policy Offices needed to provide more detailed guidance on how to determine
    and document where cost, schedule, and performance consideration justified
    submitting a waiver request to specific JTA standards in the system design.

    The Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) could use the planned “DoD Joint Technical Architecture User
    Guide” and the Virtual JTA to provide more detailed guidance to program
    managers on justifying the need to waive the use of specific JTA standards in
    the system design process.

Summary
    JTA waiver policy was established to provide acquisition decisionmakers with
    timely notification of instances where cost, schedule, or performance impacts
    may preclude program manager use of specific JTA standards. When program
    managers do not submit waiver requests as required, milestone decision
    authorities will not become aware of potential system interoperability shortfalls
    until later in program development, perhaps as late as when program managers
    seek interoperability certification from the Defense Information Systems Agency
    before requesting approval to enter full-rate production. At this late stage in the
    system development process, acquisition decisionmakers have few options
    because of the cost and schedule impacts that will occur from implementing JTA


                                        37
    standards requirements in the design at that point of the acquisition process.
    Implementation of recommendations in finding B should result in program
    managers submitting waiver requests to JTA standards requirements as required.

Management Comments on the Finding and Audit Responses
    Summaries of management comments on the finding and our responses are in
    Appendix G.

Recommendations Management Comments, and Audit
 Response

    C. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence), in coordination with the Under
    Secretary of Defense for Acquisition, Technology, and Logistics, verify that
    the Defense Information Systems Agency includes in the planned “DoD
    Joint Technical Architecture User Guide” and Virtual Joint Technical
    Architecture guidance on how to determine and document instances when
    cost, schedule, and performance considerations justified submitting a
    waiver request for specific Joint Technical Architecture standards
    applicable to system interoperability requirements.

    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) Comments. The Director, Architecture and Interoperability,
    responding for the Assistant Secretary, concurred, stating that the Office of the
    Deputy Chief Information Officer will work with the Office of the Under
    Secretary of Defense for Acquisition, Technology, and Logistics and the DoD
    Components to develop guidance for assessing cost, schedule, and performance
    impacts that may justify waivers to JTA standards. The Director stated that his
    office would include the waiver guidance in the DoD JTA Users Guide and in
    the Virtual JTA for Component Acquisition Executives, program executive
    officers, and program managers’ use in determining instances where a JTA
    waiver request is warranted. The Director further stated that his office has
    included language in the draft DoD Instruction 4630.8 that requires DoD
    Component Acquisition Executives to establish procedures for review and
    approval of waiver requests. In addition to responding to the recommendation,
    the Director suggested that, in the final report, we include a recommendation to
    the Heads of the DoD Components to establish administrative processes and
    procedures for submission, review, consideration, and approval of JTA waiver
    requests. He stated that the DoD Components should include these
    administrative processes and procedures in their JTA implementation plans.




                                        38
Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Interoperability, partially concurred, but suggested
that it would be more appropriate to change “Joint Technical Architecture” to
“Information Interoperability” in the title of the planned “DoD Joint Technical
Architecture User Guide” because the JTA is only one method for achieving
interoperability.

Joint Chiefs of Staff Director for Command, Control, Communications and
Computers Comments. Although not required to comment, the Vice Director,
Joint Staff, stated that DoD Regulation 5000.2-R already addresses waiver
guidance.

Audit Response. The comments from the Director, Architecture and
Interoperability, and the Director, Interoperability, were responsive. We did
not include the additional recommendation to the Heads of DoD Components
that the Director proposed regarding establishing administrative processes and
procedures for submission, review, consideration, and approval of JTA waiver
requests. While we believe the recommendation may have merit, we did not do
audit fieldwork to assess the actual processes and procedures that DoD
Components were using for waiver requests; therefore, we do not have a basis
for making the suggested recommendation. The Director could emphasize
waiver procedures as part of his guidance and feedback on DoD Component
JTA implementation plans, as discussed in the management responses and audit
comments in finding A to Recommendations A.2 and A.3.

The suggestion of the Director, Interoperability, for changing the title of the
planned “DoD Joint Technical Architecture User Guide” would not be
appropriate because the document specifically pertains to program manager use
of the JTA. The assertion of the Vice Director, Joint Staff, that DoD
Regulation 5000.2-R provides waiver guidance is correct, but the regulation
does not provide guidance on how to determine and document instances when
cost, schedule, and performance considerations justify submitting a waiver
request for specific JTA standards applicable to system interoperability
requirements.




                                   39
Appendix A. Audit Process

Scope
    We conducted the audit from February 2000 through January 2001 and reviewed
    documentation dated from August 1992 through January 2001 at the Offices of
    the Under Secretary of Defense for Acquisition, Technology, and Logistics; the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence); the Joint Chiefs of Staff Director for Command, Control,
    Communications and Computers; and the DoD Component Headquarters.
    Additionally, we received information in response to survey questionnaires from
    2 of 4 Component Acquisition Executives, 15 of 19 Program Executive
    Officers, and 81 of 86 program managers.

    DoD-wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal.

        •   FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
            future by pursuing a focused modernization effort that maintains U.S.
            qualitative superiority in key warfighting capabilities. Transform the
            force by exploiting the Revolution in Military Affairs, and reengineer the
            Department to achieve a 21st century infrastructure. (00-DoD-2)

        •   FY2000 Subordinate Performance Goal 2.4: Meet combat forces’
            needs smarter and faster, with products and services that work better and
            cost less, by improving the efficiency of DoD acquisition processes. (00-
            DoD-2.4)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the DoD weapons system acquisition high-risk area.

Methodology
    To evaluate DoD progress in implementing the standards contained in the JTA
    in support of achieving systems interoperability, we examined regulations and
    guidance on planning and reporting documentation relating to the JTA.
    Additionally, we analyzed the responses provided from 2 of 4 Component
    Acquisition Executives, 15 of 19 Program Executive Officers, and 81 of 86
    program managers to our survey questionnaire on their experience using JTA
    standards. We also interviewed Army, Navy, and Air Force personnel who
    were responsible for implementing the JTA standards within their organizations.



                                        40
    We received technical assistance in evaluating progress in implementing the JTA
    from electrical engineers in the Technical Assessment Division, Office of the
    Assistant Inspector General for Audit, DoD.

    Auditing Standards. We conducted this program audit in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD, and accordingly included such
    tests of management controls as we deemed necessary.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of Management Control Program. In accordance with
    DoD Directive 5000.1, “Defense Acquisition,” March 15, 1996, and DoD
    Regulation 5000.2-R, acquisition managers are to use program cost, schedule,
    and performance parameters as control objectives to implement the requirements
    of DoD Directive 5010.38. Accordingly, we limited our review to management
    controls directly related to Policy Offices’ and program manager implementation
    of JTA standards in developing and acquiring weapon systems.

    Adequacy of Management Controls. We identified material management
    control weaknesses in the Offices of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics; the Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence); and the Joint Chiefs of
    Staff Director for Command, Control, Communications and Computers, as
    defined by DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996. The above Policy Offices did not implement
    effective controls to ensure that the DoD Components prepared and formulated
    complete plans for implementing the JTA (finding A), that program managers
    considered and used JTA standards in designing weapon systems (finding B) and
    applied for waivers from JTA standards when justified based on system cost,
    schedule, or performance considerations (finding C). Recommendations in
    findings A, B, and C, if implemented, will correct the material management
    control weaknesses. A copy of the report will be provided to the senior officials
    responsible for management controls in the Offices of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics; the Assistant Secretary of



                                       41
    Defense (Command, Control, Communications, and Intelligence); and the Joint
    Chiefs of Staff Director for Command, Control, Communications and
    Computers.

    Adequacy of Management’s Self Evaluation. The Policy Offices conducted
    management control reviews that examined the adequacy of management
    controls to manage and oversee the use and expenditure of fiscal, personnel, and
    physical resources assigned to their organizations. The material management
    control weaknesses we identified crossed organizational lines because the JTA is
    managed through the coordinated efforts of the Policy Offices and the
    management councils, discussed in Appendix D. Thus, management of the JTA
    was outside the scope of the self-evaluations of the individual Policy Offices.

Prior Coverage
    During the last 5 years, the Inspector General, DoD, issued one report relating
    to program manager and DoD Component use of the JTA in the acquisition
    process.

    Inspector General, DoD, Report No. 98-023, “Implementation of the DoD Joint
    Technical Architecture,” November 18, 1997




                                       42
Appendix B. Definitions of Terms Relating to the
            Joint Technical Architecture
    The following definitions are germane to a general understanding of
    implementing the Joint Technical Architecture.

    Architecture. The architecture is the framework or structure that portrays
    relationships among all the elements of the subject force, system, or activity.

    Automated Information System. An acquisition program that acquires
    information technology except information technology that involves equipment
    that is an integral part of a weapon or weapons system, or is a tactical
    communications system.

    Closed Interfaces. Closed interfaces are privately controlled system and
    subsystem boundary descriptions for interfaces that are not disclosed to the
    public or that are unique to a single supplier.

    Commercial Item. A commercial item is any item other than real property that
    is of a type customarily used for nongovernmental purposes and that has been
    sold to the general public or offered for sale to the general public.

    Information Technology Systems. Any equipment or interconnected system or
    subsystem of equipment that is used in the automatic acquisition, storage,
    manipulation, management, movement, control, display, switching, interchange,
    transmission, or reception of data or information. Information technology
    includes computers, ancillary equipment, software, firmware, and similar
    procedures, services, and related resources.

    Interface Standard. An interface standard specifies the physical or functional
    interface characteristics of systems, subsystems, equipment, assemblies,
    components, items or parts to permit interchangeability, interconnection,
    interoperability, compatibility, or communications.

    Interoperability. Interoperability is the ability of systems, units, or forces to
    provide services to and accept services from other systems, units, or forces and
    to use the services so exchanged to enable them to operate effectively together.

    Joint Technical Architecture. The Joint Technical Architecture defines the
    DoD minimum set of rules governing the arrangement, interaction, and
    interdependence of the parts or elements, whose purpose is to ensure that
    systems conform to a specific set of requirements. It identifies system services,
    interfaces, standards, and the relationships.

    Legacy Systems. Systems currently performing a mission-related function.
    These systems may be candidates for phase-out, upgrade, or replacement.



                                        43
Level of Openness. The level of openness is the system, subsystem, or
component level at which the interfaces conform to open standards. The
contractor or supplier may control design, interfaces, repair, and
implementation below the level of openness. The level of openness will affect
the overall performance, life-cycle costs, long-term supportability, acquisition
cycle time, interoperability, intraoperability, ease of technology insertion, and
the extent of organic repair of a system.

Milestone Decision Authority. The milestone decision authority is the
individual that the Under Secretary of Defense for Acquisition, Technology, and
Logistics [or the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) for automated information programs] has
designated to approve entry of an acquisition program into the next phase of the
acquisition process.
National Security Systems. Telecommunications and information systems that
the DoD operates, the functions, operation, or use of which involves intelligence
activities, command and control of military forces, equipment that is an integral
part of a weapon system, cryptologic activities related to national security, and
is critical to the direct fulfillment of military or intelligence missions.

Open Specifications. Open specifications are public specifications maintained
by an open, public consensus process to accommodate new technologies over
time and consistent with international standards.

Open Standards. Open standards are widely accepted and supported standards
set by recognized standards organizations or the commercial marketplace. Open
standards support interoperability, portability, and scalability and are equally
available to the general public at no cost or with a moderate license fee.

Open System. An open system is a system that implements sufficient open
standards for interfaces, services, and supporting formats to enable properly
engineered components to be used across a wide range of systems with minimal
changes, to interoperate with other components on local and remote systems,
and to interact with users in a style that facilitates portability. An open system
is characterized by the following:

   •   well defined, widely used, preferably nonproprietary interfaces and
       protocols;

   •   uses of standards which are developed and adopted by recognized
       standards bodies or the commercial marketplace;

   •   defines all aspects of system interfaces to facilitate new or additional
       systems capabilities for a wide range of applications; and

   •   explicitly provides for expanding or upgrading through the incorporation
       of additional or higher performance elements with minimal impact on the
       system.



                                    44
Open Systems Approach. An open systems approach is an integrated business
and technical strategy to choose commercially supported specifications and
standards for selected system interfaces (external, internal, functional, and
physical), products, practices, and tools, and to build systems based on modular
hardware and software design. Program selection of commercial specifications
and standards is based on:

   •   standards that industry standards bodies have adapted or industry de
       facto standards (those successful in the marketplace);

   •   market research that evaluates the short- and long-term availability of
       products;

   •   a disciplined systems engineering process that examines tradeoffs of
       performance;

   •   supportability and upgrade potential within a defined cost constraint; and

   •   allowance for continued access to technological innovation supported by
       many customers and a broad industrial base.

Open Systems Architecture. An open systems architecture is a system
architecture produced by an open systems approach and that uses open systems
specifications and standards to an appropriate level.

Open Systems Strategy. An open systems strategy focuses on fielding a
superior warfighting capability more quickly and more affordably by using
multiple suppliers and commercially supported practices, products,
specifications, and standards, which are selected based on performance, cost,
industry acceptance, long-term availability and supportability, and upgrade
potential.

Operational Architecture View. An operational architecture view is a
description of the tasks and activities, operational elements, and information
flows required to accomplish or support a military operation.

Program Manager.        The program manager is the individual that the
Component Acquisition Executive designates to manage an acquisition program
and who is appropriately certified under the provisions of the Defense
Acquisition Workforce Improvement Act. A program manager has no other
command or staff responsibilities within the DoD Component.

Proprietary Specifications. Proprietary specifications are exclusively owned
by a private individual or corporation under a trademark or patent, the use of
which would require a license.

Specification. A specification is a document that prescribes, in a complete,
precise and verifiable manner, the requirements, design, behavior, or
characteristics of a system or system component.




                                    45
Standard. A standard is a document that establishes uniform engineering and
technical requirements for processes, procedures, practices, and methods.
Standards may also establish requirements for selection, application, and design
criteria of material.

System Architecture. A system architecture is a description, including
graphics, of systems and interconnections providing for or supporting
warfighting functions . The system architecture defines the physical connection,
location, and identification of the key nodes, circuits, networks, and warfighting
platforms and specifies system and component performance parameters. It is
constructed to satisfy operational architecture requirements per standards
defined in the Joint Technical Architecture. The system architecture shows how
multiple systems within a subject area link and interoperate, and may describe
the internal construction or operations of particular systems within the
architecture.

Systems Architecture View. A system architecture view is a description,
including graphics, of systems and interconnections providing for, or
supporting, warfighter functions.

Technical Architecture View. A technical architecture view is the minimal set
of rules governing the arrangement, interaction and interdependencies of system
parts or elements, whose purpose is to ensure that a conformant system satisfies
a specified set of requirements.

Weapon System. A weapon system is an item or set of items that can be used
directly by the warfighter to carry out combat or combat support missions to
include tactical communication systems.




                                    46
Appendix C. Relationship of the Joint Technical
            Architecture to Other DoD
            Programs and Initiatives.
    The JTA is complementary to other DoD programs and initiatives aimed at the
    development and acquisition of effective and interoperable information systems.
    These programs and initiatives include DoD Component technical architectures;
    the Defense Information Infrastructure Common Operating Environment (DII
    COE); the Command, Control, Communications, Computers, Intelligence,
    Surveillance, and Reconnaissance Architecture Framework (the Architecture
    Framework); the DoD Technical Reference Model; and the Requirements
    Generation System and the Interoperability and Supportability of National
    Security Systems and Information Technology Systems, administered through
    the Joint Chiefs of Staff. The roles and contributions of these programs and
    initiatives and their relationship to the JTA follow.


Component Technical Architectures
    The Army and the Air Force have developed their own technical architectures.
    The Army established its technical architecture as part of its Army Enterprise
    Architecture, which also includes operational and systems architectures. In
    August 1996, the Policy Offices used portions of the Army Technical
    Architecture to establish Version 1.0 of the JTA. The Army and the Air Force
    use the JTA as the basis of their technical architectures but have included
    standards that are in addition to, but not in conflict with, the JTA. The Army
    and the Air Force specify the additional standards to cover standards that do not
    fall under the jurisdiction of the JTA domains.

Defense Information Infrastructure Common Operation
 Environment
    The DII COE is a conceptual architecture that DoD acquisition program
    managers and system architects use as the foundation for DoD information
    systems. The DII COE provides an approach for building interoperable systems
    and a reference implementation library containing a collection of reusable
    software components; a set of application program interfaces; a series of
    specifications and standards for developing interoperable systems; a software
    infrastructure for supporting mission area applications; and a set of guidelines,
    standards, and specifications. JTA standards provide the compliance baseline
    for the Common Support Applications layer of the Common Operating
    Environment and the Infrastructure Services portion of the DII COE. The
    Policy Offices are working on the relationship of the JTA to the existing and
    future DII COE segments, including legacy segments. Some legacy segments of
    DII COE are not JTA compliant. The Defense Information Systems Agency

                                       47
    plans to request waivers, as required, for the noncompliant segments. Sponsors
    and technical working groups must ensure JTA compliance before submitting
    segments for inclusion in the Common Operating Environment. Accordingly,
    users implementing the Common Operating Environment do not need to submit
    JTA waiver requests. The Office of the Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence) has responsibility for
    oversight and management of the DII COE.

Architecture Framework
    The Architecture Framework is a specification that describes notionally what is
    required for information interchange. It provides the rules, guidance, and
    product descriptions for developing and presenting architectures that ensure a
    common denominator for understanding, comparing, and integrating
    architectures. The Architecture Framework is intended to:

        • ensure that the architectural descriptions that are developed by the
          Military Departments and Agencies interrelate to each organization’s
          operational, systems, and technical architecture views;

        • compare and integrate across joint and combined organizational
          boundaries;

        • provide direction on how to describe architectures; and

        • provide a process for using the Architecture Framework to build and
          integrate architectures using a six-step architectural description process.

     Within the Architecture Framework, the Technical Architecture Profile
     documents program manager use or planned use of technical standards,
     including use of the JTA. The Architecture Framework briefly describes the
     JTA as identifying “a common set of mandatory information technology
     standards and guidelines to be used in all new and upgraded Command,
     Control, Communications, Computers and Intelligence (C4I) acquisitions across
     DoD.” Thus, the Architecture Framework acts as a source document
     reinforcing program manger use of the JTA. The Office of the Assistant
     Secretary of Defense (Command, Control, Communications, and Intelligence)
     has responsibility for oversight and management of the Architecture
     Framework.

DoD Technical Reference Model
    The DoD Technical Reference Model provides a common conceptual framework
    and defines a common vocabulary so that the diverse components within DoD
    can better coordinate acquisition, development, interoperability, and support of
    DoD information systems. The Model provides guidance to developers,
    systems architects, and individuals in using and developing systems and
    technical architectures. It also promotes open systems design but is not a system

                                        48
     architecture. Program manager use of the Technical Reference Model can
     facilitate and enable interoperability, enable portability and scalability, support
     open systems concepts, promote product independence and software reuse, and
     facilitate manageability.

     Further, the DoD Technical Reference Model provides the foundation and the
     common service and interface definitions used in the JTA. Together the DoD
     Technical Reference Model and the core set of standards mandated in the JTA
     define the target technical environment for the acquisition, development, and
     support of DoD information technology. The Model also provides the
     foundation for other DoD initiatives such as the DII COE and the Architecture
     Framework. The DoD Technical Reference Model, as an enhanced model,
     supports both Automated Information Systems and Weapons Systems
     applications. It is well suited to support the diverse service and interface
     definitions, as well as support the various functional reference models
     encountered throughout the JTA and its domains. It is also used to address and
     assist in the resolution of interoperability issues. The Office of the Assistant
     Secretary of Defense (Command, Control, Communications, and Intelligence)
     has responsibility for oversight and management of the DoD Technical
     Reference Model.

Requirements Generation System
     The Office of the Chairman, Joint Chiefs of Staff, oversees the requirements
     generation system as defined in CJCS Instruction 3170.01A, “Requirements
     Generation System,” August 10, 1999. The Instruction provides policies and
     procedures for developing, reviewing, validating, and approving mission needs
     statements and operational requirements documents. As part of the policy and
     procedure, the Instruction requires that systems must comply with applicable
     information technology standards contained in the JTA.

Interoperability and Supportability of National Security
  Systems and Information Technology Systems
     The Office of the Chairman, Joint Chief of Staff, oversees system
     interoperability and supportability initiatives as stated in CJCS
     Instruction 6212.01B, “Interoperability and Supportability of National Security
     Systems and Information Technology Systems,” May 8, 2000. The Instruction
     establishes policies and procedures for:

        •   Joint Chiefs of Staff interoperability certification of mission needs
            statements and operational requirements documents,

        •   developing interoperability key performance parameters for systems, and

        •   performing system interoperability validations.




                                          49
As part of the procedures for performing interoperability certification of mission
needs statements and operational requirements documents, the Instruction
contains checklist criteria that the Defense Information Systems Agency uses to
assess the documents for interoperability certification in support of the Office of
the Joint Chiefs of Staff. The checklist includes the requirement that the two
documents require that systems developed comply with the applicable
information technology standards contained in the current JTA.

Draft updates to DoD Instruction 4630.5, “Compatibility, Interoperability, and
Integration of Command, Control, Communications, and Intelligence Systems,”
November 12, 1992, and DoD Instruction 4630.8, “Procedures for
Compatibility, Interoperability, and Integration of Command, Control,
Communications, and Intelligence (C3I) Systems,” November 18,1992, describe
policy and responsibilities and prescribe procedures for a reengineered approach
to Information Technology and National Security Systems interoperability. The
procedures consider both materiel (acquisition or procurement) and non-material
(doctrine, organizational, training, leadership, and personnel) aspects to ensure
interoperability and supportability of Information Technology and National
Security Systems throughout DoD. These draft directives, if implemented,
would require use of mission area integrated architectures to characterize
Information Technology and National Security Systems interoperability; precise
definition of user requirements to include interoperability as a Key Performance
Parameter; documentation of a system’s dependencies, interface requirements
and support needs in a Command, Control, Communications, Computers,
Intelligence, Support Plan; early and frequent testing to verify interoperability;
and involvement of the operational community to identify, prioritize and
synchronize both materiel and non-materiel remedies to resolve fielded
Information Technology and National Security Systems interoperability issues.




                                    50
Appendix D. Responsibilities for Managing the
            Joint Technical Architecture
    The Policy Offices jointly manage the JTA, working together to provide a
    management structure and process to evolve and maintain the JTA and respond
    to the needs of the JTA user community. The Policy Offices exercise
    management oversight and configuration management of the JTA through a
    hierarchy of management councils and groups made up of representatives from
    their respective offices and from the DoD Components. These councils and
    groups include the Architecture Coordination Council, the Technical
    Architecture Steering Group, the Joint Technical Architecture Development
    Group, the Defense Information Systems Agency, other DoD Agencies, and the
    Military Departments. Also, one of the Policy Offices [the Office of the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence)], has additional information technology responsibilities as the Chief
    Information Officer for DoD. The responsibilities of the management councils,
    groups, and offices are defined in the “DoD Joint Technical Architecture
    Management Plan,” January 24, 2001, as detailed below.

Architecture Coordination Council
    The Architecture Coordination Council (the Council) provides top level
    oversight of the JTA. The senior officials of the Policy Offices co-chair the
    Council, and membership comprises the senior acquisition officials from the
    Military Departments, the Defense Information Systems Agency, and other DoD
    Agencies. The Council determines and approves changes in the scope and
    applicability of the JTA and provides oversight, high-level guidance, and
    direction in the development of DoD technical, systems, and operational
    architectures. The Council also resolves substantive issues raised from the
    Technical Architecture Steering Group and the Joint Technical Architecture
    Development Group discussed below. The chairpersons of the Council have
    signatory authority for revisions to the JTA.

Technical Architecture Steering Group
    The Technical Architecture Steering Group (the Steering Group) provides
    specific JTA guidance and direction. Representatives from the Offices of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics and the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) co-chair the Steering Group. The Steering Group is composed of
    voting representatives from 19 organizations including the Military
    Departments, the Defense Information Systems Agency, and other DoD
    Agencies and Components. The Steering Group determines and recommends to
    the Council changes in scope and applicability of the JTA. Also, the Steering
    Group appoints representatives and provides broad guidance and direction to the
    Joint Technical Architecture Development Group. Additionally, the Steering


                                        51
    Group resolves substantive issues raised from the Joint Technical Architecture
    Development Group and votes to approve elevation of JTA revisions to the
    Council for approval and signature.

Joint Technical Architecture Development Group
    The Joint Technical Architecture Development Group (the Development Group)
    manages the working-level development of the JTA. The Defense Information
    Systems Agency Center for Information Technology Standards chairs the
    Development Group. The Development Group performs configuration
    management of the JTA and has permanent representatives from the same
    19 organizations that make up the Steering Group, as well as other members that
    the chair of the Development Group may add to address specific issues. The
    members of the Development Group must be prepared to represent the
    acquisition and development interests of their organization. The Development
    Group is authorized to approve and publish minor changes to the JTA between
    major version releases. The “DoD Joint Technical Management Plan” defines
    minor changes as:

       •   elevating emerging standards to mandated standards when the standards
           have met JTA selection criteria,

       •   updating existing standards to reflect the latest release, and

       •   retiring a standard that is no longer essential to interoperability.

    The Development Group raises unresolved issues to the Steering Group for
    review and resolution. The Development Group also manages the standards
    review process, refers change requests to appropriate subgroups, and resolves
    change requests raised from the subgroup level.

Defense Information Systems Agency, Military Departments,
  and Other DoD Agencies
    Defense Information Systems Agency. The Defense Information Systems
    Agency provides resources to chair and to provide administrative support to the
    Development Group; executes the configuration management process for the
    JTA; maintains the database of all recommended, proposed, agreed, and
    implemented changes to the JTA; and electronically distributes new versions of
    the JTA within the agreed configuration management process. Additionally, the
    Defense Information Systems Agency serves as the focal point for industry
    comments, identifies standards candidates for elevation to the JTA core,
    identifies JTA subgroup leaders and maintains the JTA website.

    Military Departments and Other DoD Agencies. The Military Departments
    and other DoD Agencies, such as the National Security Agency, provide JTA
    implementation feedback to the Steering Group and the Development Group,
    and provide representatives with the proper technical, functional, and acquisition
    expertise to the groups to present their organization’s interoperability and JTA


                                         52
    implementation issues and concerns. Also, the Military Departments and DoD
    agencies each designate a voting representative to appropriate groups; identify
    standards candidates for elevation to the JTA; and generate change requests to
    maintain the accuracy and integrity of JTA mandated standards, emerging
    standards, and associated text.

DoD Chief Information Officer
    The Office of the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) functions as the Chief Information Officer
    for DoD. Section 5125, “Agency Chief Information Officer,” Public
    Law 104-106, February 10, 1996, defines the responsibilities of the Chief
    Information Officers for executive agencies. Responsibilities include:

       •   providing advice and other assistance to the head of the executive agency
           to ensure that the agency acquires information technology and manages
           information resources in a manner consistent with public law and the
           priorities that the executive agency head establishes,

       •   developing, maintaining, and facilitating agency implementation of sound
           and integrated information technology architecture, and

       •   promoting effective and efficient design and operation of all major
           information resources management processes for the executive agency.

    In addition to the above responsibilities, section 2223, title 10, United States
    Code, “Information Technology: Additional Responsibilities of Chief
    Information Officers,” January 5, 1999, amended the responsibilities of the
    DoD Chief Information Officers to include the following:

       •   review and provide recommendations to the Secretary of Defense on
           DoD budget requests for information technology and national security
           systems;

       •   ensure the interoperability of Information Technology and National
           Security Systems throughout the DoD;

       •   ensure that Information Technology and National Security Systems
           standards that will apply throughout the DoD are prescribed; and

       •   provide for the elimination of duplicate Information Technology and
           National Security Systems within and between the Military Departments
           and Defense Agencies.

    The DoD Chief Information Officer also has responsibilities for pre- and
    post-acquisition interoperability of Information Technology and National
    Security Systems that overlap the responsibilities of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics for the acquisition of
    Information Technology and National Security Systems.


                                         53
Appendix F. Key Acquisition Planning
            Documents
   Acquisition planning documents serve as a roadmap to program managers and
   contractors for program execution from initiation through postproduction
   support. Therefore, the Joint Chiefs of Staff and supporting organizations
   involved in the weapons systems requirements generation process and the DoD
   acquisition community must include JTA standards requirements in key
   acquisition planning documents to maximize JTA effectiveness as a tool for
   achieving overall DoD system interoperability. The key acquisition planning
   documents are the mission needs statement, the operational requirements
   document, the request for proposal, and the contract statement of work. The
   following discusses the general purpose of each of the four acquisition planning
   documents and the document’s relationship to program manager implementation
   of the JTA standards.

      •   Mission Needs Statement. The mission needs statement is a product of
          the requirements generation system. Chairman of the Joint Chiefs of
          Staff Instruction 3170.01A, “Requirements Generation System,”
          August 10, 1999, requires DoD Components to define mission needs in
          broad operational terms in a mission needs statement. If DoD
          decisionmakers determine that a mission needs statement supports the
          need for a new system or system upgrade, the DoD Components use the
          broad requirements defined in the mission needs statement to develop the
          more detailed system requirements in the operational requirements
          document. The Instruction promotes warfighter use of JTA standards
          by requiring that mission needs statements define operational needs in
          conformance with DoD interoperability standards.

      •   Operational Requirements Document. Like the mission needs
          statement, the operational requirements document is a product of the
          requirements generation system that documents required operational
          performance parameters for the proposed concept or system. Chairman
          of the Joint Chiefs of Staff Instruction 3170.01A requires that the DoD
          Components, in the operational requirements document, include the
          performance parameters, including interoperability, which an acquisition
          program must meet. The Instruction promotes use of the JTA by
          requiring that system operational requirements documents specify that
          the system must comply with applicable information technology
          standards in the JTA.

      •   Requests for Proposal. The Federal Acquisition Regulation,
          Subpart 15.203, “Requests for Proposal,” October 1, 1999, requires
          contracting officers for negotiated acquisitions to use requests for
          proposals to communicate Government requirements to prospective
          contractors and to solicit contractor proposals. Section C of the request
          for proposal has a section that includes “External Interfaces” and
          “Compliance with Standards.” It is the program manager’s


                                      59
    responsibility to identify the external interface standards required and to
    provide a listing of all relevant JTA standards and other standards
    necessary for the contractor to design into National Security Systems and
    information technology systems. Through this proposal section, the
    contracting officer can advise prospective contract offerors that they will
    be required to develop a system using standards contained in the JTA and
    that their proposal must address implementing the standards contained in
    the JTA if they want to be considered as a responsive offeror to the
    request for proposals.

•   Contract Statement of Work. The Federal Acquisition Regulation,
    Subparts 15.406-1, “Uniform Contract Format,” and 15.406-2,
    “Part 1 - The Schedule,” requires agency solicitations for contracts to
    include a statement of work or other description that defines the
    Government’s requirements. Program manager inclusion of JTA
    standards requirements in this document is necessary to ensure that the
    contractor uses the JTA in the system design approach. Program
    managers can also use provisions in the contract statement of work,
    along with the contract data requirements list, to require the contractor to
    identify instances where cost, schedule, and performance considerations
    justify submitting a request to DoD authorities for waiver of JTA
    standards requirements, as discussed in finding C.




                                 60
Appendix G. Audit Response to Management
            Comments Concerning the Report
    Our detailed responses to the comments from the Director, Interoperability,
    Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics; the Director, Architecture and Interoperability, Office of the Assistant
    Secretary of Defense (Command, Control Communications, and Intelligence);
    and the Vice Director, Joint Staff, Office of the Joint Chiefs of Staff on
    statements in the draft report follow. We also provide a response to the
    unsolicited comments from the Vice Director of Information Systems for
    Command, Control, Communications, and Computers, Office of the Secretary
    of the Army. The complete text of the management comments on statements in
    the draft report is in the Management Comments section of this report.



Director, Interoperability, Comments and Audit Response
    Management Comments. The Director provided comments on the overall
    report as well as the recommendations, and editorial comments on individual
    report sections. In commenting on the overall report, the Director stated that, in
    general, he agreed with our findings that JTA implementation is not as robust as
    might be desired. However, he stated that there are issues related to JTA
    implementation that the draft report did not identify or discuss. Specifically, he
    stated that the DoD can only truly implement the technical architecture
    embodied in the JTA by marrying it with corresponding operational and system
    architectures. He believed that not addressing these issues could result in an
    unbalanced perception concerning the JTA and its implementation.

    Audit Response. We added information to the report background to further
    clarify that the JTA, by itself, is not sufficient to achieve interoperability.
    Further, we considered the editorial comments that the Director provided to the
    report and made revisions where appropriate.



Director, Architecture and Interoperability, Comments and
  Audit Response

    Management Comments. The Director, Architecture and Interoperability,
    provided comments on the overall report and the Background section. The
    Director stated that he concurred with the report’s objectives, approach,
    findings, and recommendations. He stated that the report accurately assessed
    DoD progress in implementing the JTA and that our recommendations should
    effectively address the deficiencies noted during the audit. He further stated that
    the findings of the report highlighted the critical and necessary role the DoD


                                        61
Components play in implementing and using the JTA. He asserted that the
management processes and procedures documented in DoD Components’ JTA
implementation plans were key in communicating expectations and requirements
for JTA implementation to Program Executive Officers and acquisition program
managers. To further emphasize the requirement for DoD Components to
establish JTA implementation management processes and controls, he proposed
that we include an additional recommendation in finding A that: Heads of DoD
Components, through their respective Component Acquisition Executives,
conduct a thorough review of existing management, review, control,
accountability, and waiver processes for implementation and use of the JTA
within their respective Components and, based on the results of this review:

   •   reengineer their JTA-related processes where they can be improved,
   •   update their Component’s JTA implementation plans to reflect the
       reengineered JTA processes, and

   •   delineate desired planning topics and content considerations in the JTA
       implementation plan template (that the Policy Offices would provide) to
       be incorporated in the implementation plan revisions.

With regard to the report Background section, the Director suggested that we
discuss the responsibilities of the DoD Chief Information Officer for prescribing
standards, as defined under section 2223, title 10, United States Code,
“Information Technology: Additional Responsibilities of Chief Information
Officers,” October 1, 1998. He recommended this change to recognize, up
front, that the DoD Chief Information Officer has statutory responsibility for
prescribing standards throughout the DoD.

Audit Response. We did not include the additional recommendation to
finding A that the Director proposed regarding DoD Components’ review and
revision of their existing processes relating to the JTA. While we believe the
recommendation may have merit, we did not do audit fieldwork to assess the
actual processes and procedures that DoD Components were using relating to
JTA implementation; therefore, we do not have a basis for making the
suggested recommendation. However, we believe that implementing the
recommendations in the report will provide additional emphasis to DoD
Components’ implementation of the JTA and will improve the DoD
Components’ policies and procedures. We revised the text in the draft report
Background to cite the responsibilities of the DoD Chief Information Officer.




                                   62
Vice Director, Joint Staff, Comments and Audit Response
    The Vice Director provided comments on the overall report as well as
    comments on the Executive Summary, Background, Findings and Appendixes.

    Comments on the Overall Report. The Vice Director provided the following
    general comments on the overall report.

            Responsibility for the Mission Needs Statement and the Operational
    Requirements Document. The Vice Director asserted that the report
    incorrectly stated that the mission needs statement and the operational
    requirements document were the responsibility of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics and the Assistant Secretary
    of Defense (Command, Control Communications, and Intelligence). He stated
    that those documents are the product of the Requirements Generation System,
    for which the Office of the Joint Chiefs of Staff is responsible.

           Audit Comment. We agree. We modified Appendix F to explain that
    the mission needs statement and the operational requirements document are
    products of the Joint Chiefs of Staff requirements generation system.

            Updated Acquisition Policy. The Vice Director stated that the draft
    report did not reference the most recent JTA language incorporated in the
    Interim DoD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
    Acquisition Programs (MDAPs) and Major Automated Information Systems
    (MAIS) Acquisition Programs,” January 4, 2001. He cited revised JTA
    language in the regulation and stated that, to comply with the JTA, program
    managers must implement the JTA using the C4I Support. He also stated that
    the draft report did not reference JTA compliance language in the
    March 15, 1996, version of DoD Regulation 5000.2-R, which stated that
    weapon systems must comply with the JTA in C4I Support Plans.

            Audit Response. The draft report correctly stated that the DoD Policy
    Offices were working to revise and update JTA policy, including updating the
    DoD 5000 series and the broader applicability of the JTA resulting from the
    memorandum the Policy Offices issued in November 1998, implementing JTA
    Version 2.0. We did not reference the JTA compliance language in the
    March 15, 1996, version of DoD Regulation 5000.2-R, which states that
    weapon systems must comply with the JTA in C4I Support Plans, because our
    audit scope focused on the mission need statement, operational requirements
    document, request for proposal, and contract statement of work. We revised the
    Updating Policy section of finding B to recognize the revised JTA language in
    DoD Regulation 5000.2-R, January 4, 2001. We recognized the importance of
    C4I Support Plans in effective JTA implementation in our audit response to
    actions taken by the Director, Architecture and Interoperability, to
    Recommendation B.1, which included establishing required timelines for DoD
    Components to submit draft C4I Support Plans to the Joint Staff for certification.




                                        63
        Additional References. The Vice Director stated that that the draft
report should have referenced the following:

           •   DoD Instruction 4120.24, Defense Standardization Program
               (DSP),” or DoD Manual 4120.24-M, “DSP Policies and
               Procedures,” March 2000. The Vice Director stated that DoD
               Manual 4120.24-M mandates the JTA as a standardization
               consideration.

           •   “Joint Staff Military Communications-Electronic Board (MCEB)
               Interoperability Policy and Test Panel (IPTP) Charter,”
               November 3, 2000. The Vice Director stated that the
               Interoperability Policy and Test Panel is the primary DoD forum
               to guide the Defense Information Systems Agency and the Joint
               Interoperability Test Command to conduct JTA-prescribed
               standards and interoperability testing between National Security
               Systems and Information Technology Systems.

           •   The Policy Office and Director, Operational Test and Evaluation,
               memorandum, “Promulgation of DoD Policy for Assessment,
               Test, and Evaluation of Information Technology System
               Interoperability,” December 4, 2000. The Vice Director stated
               that the memorandum outlines a process for interoperability
               review and assessment and allows the Director, Operational Test
               and Evaluation, to place programs having interoperability
               deficiencies on a watch list until the programs resolve the
               deficiencies.

        Audit Response. We added a reference to DoD Manual 4120.24-M,
“DSP Policies and Procedures,” March 2000, to the Updating Policy section of
finding B. We did not add references to the other two documents because they
primarily cover activities beyond the scope of the issues addressed in our report.
Specifically, the Joint Staff Military Communications-Electronic Board (MCEB)
Interoperability Policy and Test Panel (IPTP) Charter and the Policy Office and
Director, Operational Test and Evaluation, memorandum provide processes and
procedures for testing systems for interoperability after the DoD establishes the
interoperability requirements for the system. Our report discusses issues
relating to JTA Implementation Plans, use of the JTA standards in acquisition
planning documents, and requesting waivers to using JTA standards.

       Joint Technical Architecture Development Group Management Plan.
The Vice Director stated that the draft report should use the most current JTA
Development Group Management Plan (Management Plan) in report discussion
regarding the Architecture Coordination Council, the Technical Architecture
Steering Group, the Defense Information Systems Agency, and DoD
Components involved in the development and publication of the JTA. The Vice
Director further recommended that we revise Appendix D based on the current
Management Plan.

       Audit Response. We believe the Vice Director was referring to the
most current version of the “DoD JTA Management Plan,” January 24, 2001,

                                    64
in his comments, because the language in this document corresponds to the
language in his comments to Appendix D. Accordingly, we revised our
discussion of the referenced groups in Appendix D to correspond to the
description provided in the DoD JTA Management Plan.

       Clinger Cohen. The Vice Director stated that the draft report
incorrectly identifies the JTA as the “information technology architecture” as
mandated by the Clinger-Cohen Act of 1996. He stated that the JTA is no more
than a DoD “Joint Interoperability Technical Standards Document.”

       Audit Response. The draft report did not state that the JTA was the
“information technology architecture” as mandated by the Clinger-Cohen Act of
1996.
        JTA Implementation Plans. The Vice Director stated that the draft
report treated the JTA Implementation Plan as “JTA implementation.” He
stated that implementation of the JTA is incorporated in DoD Regulation
5000.2-R and that program managers must specify and tailor all applicable JTA
standards in the program for which they are responsible in the acquisition
process. He requested that we review program manager documents to see
whether standards were specified.

        Audit Response. Report language clearly portrayed JTA
implementation plans as a tool for helping DoD Components implement
applicable JTA standards. In finding A, we included language from Policy
Office memorandums explaining that the JTA implementation plans are a tool
for outlining DoD Component approaches for implementing the standards in the
JTA. We also stated that JTA implementation plans were designed to ensure
that DoD Components defined processes, roles, and responsibilities for
implementing the JTA. We did not review program manager documents.
Instead, we queried program managers concerning JTA language in program
acquisition planning documents through a survey questionnaire. The survey
approach provided us with a much broader review scope than was possible
through direct on-site program review.

        Standards Prescribed in the JTA. The Vice Director stated that the
draft report should acknowledge that the JTA prescribes a minimum set of
information technology standards consisting of military-unique, Federal-unique,
and consensus commercial standards, and that additional standards and
technologies may be required for developing National Security Systems or
Information Technology Systems.

      Audit Response. We modified the JTA description in the report
Background section.

         Focus of the Report. The Vice Director stated that, although the report
is titled, “Use of JTA in DOD Acquisition Process,” its actual focus is on JTA
implementation planning. He stated that if our intent was to focus on the JTA
and the acquisition process, the report should compare the 39 weapon system
programs currently in the acquisition phases and the varying application of the
JTA standards.


                                   65
        Audit Response. The draft report title is appropriate for the subject
audit report. Not only did the audit examine the adequacy of the DoD
Component plans for implementing the JTA, but also it addressed the DoD
Components and program managers’ use of JTA standards in weapon system
acquisition documentation.

        C4I Support Plans. The Vice Director stated that the draft report did
not acknowledge that DoD Regulation 5000.2-R requires program managers to
develop a C4I Support Plan for all National Security Systems and Information
Technology Systems, regardless of acquisition category. He stated that, as part
of the C4I Support Plan, the program manager is required to document a
technical architecture profile describing the specific standards (including JTA
standards) that the program will use for specified information interfaces. He
further recommended that we review the process at various levels to determine
whether acquisition managers were providing required oversight for Acquisition
Category II and III programs where most interoperability problems manifest
themselves.

        Audit Response. We agree that the requirement for program managers
to prepare C4I Support Plans is important for ensuring that program managers
identify and include applicable JTA standards in designing their systems.
Accordingly, we have included a discussion of the requirement for C4I Support
Plans in finding B. The scope of our audit addressed Acquisition Category I
programs. However, policy and procedure changes that result from
implementing our recommendations should also affect their use of applicable
JTA standards in Acquisition Categories II and III programs.

      Differentiating Standards. The draft report should differentiate Office
of Management and Budget Circular A-119 standards from National Security
System-related standards.

        Audit Response. We did not make this change. Office of Management
and Budget Circular A-119 provides broad policy directing agencies to use
voluntary consensus standards instead of government-unique standards. As
stated in the report, the broad policy in Circular A-119 supports the use of JTA
standards, which included specific types of standards such as those for National
Security Systems.

       Applicability of Clinger-Cohen Act to National Security Systems.
The draft report should acknowledge that the Clinger-Cohen Act of 1996 is not
applicable to procurement of National Security Systems.

        Audit Response. We did not make this change. The nonapplicability of
the Clinger Cohen Act to National Security Systems as stated in Title LI,
“Responsibility for Acquisitions of Informational Technology” of the Act, is
limited. While Title LI exempts National Security Systems from some sections
of the Act, other sections do apply. Additionally, in the sections where the
exemption does apply, the Act states that agencies shall apply the provisions of
the Act to National Security Systems ‘to the extent practicable.



                                   66
        Additional Actions Requested. The Vice Director requested that we
take the following additional actions regarding the audit report:

           •   Analyze the cost and documented value of the JTA and items
               contained in JTA implementation plans to determine whether the
               current strategy should be continued. He stated that the
               JTA-mandated language has been extensively incorporated in the
               new DoD Regulation 5000.2-R, January 4, 2001, for programs to
               implement.

           •   Refocus the audit on how the JTA supports the DoD
               Regulation 5000.2-R and comparable Service processes to reflect
               the title of the audit. He stated that we should give special
               consideration to the contents of the request for proposal, system
               specification, system architecture specification, system
               architecture, and to whether standards prescribed by DoD
               Components in the JTA were tailored and specified in these
               documents. He stated that program managers are responsible for
               selecting relevant individual standards when developing the above
               documents.
           •   The open-systems approach and design are entirely different
               topics than the JTA issue and should be dealt with in a separate
               audit report.

Audit Response. The actions suggested by the Vice Director were outside the
scope of this audit. As indicated in the report, the JTA is of value to DoD
because it is a tool for promoting overall DoD system interoperability
requirements in individual weapon systems. In this respect, more than
80 percent of the respondents to the survey questionnaire indicated that the use
of the JTA standards helped them achieve program interoperability requirements
and that the use of the JTA standards benefited or did not negatively impact the
execution of their acquisition programs. Also, open systems were addressed in
Inspector General, DoD, Report No. D-2000-149, “Use of an Open System
Approach for Weapon Systems,” June 14, 2000. The report discussed the
extent to which program managers considered and used an open systems
approach in weapon systems acquisition.

Comments on the Report Background. The Vice Director made comments
relating to the following sections of the report Background: “Need for the Joint
Technical Architecture,” “Management of the JTA,” “Public Law and
Government Policy,” and “Audit Objectives.”

        Need for the Joint Technical Architecture. The Vice Director stated
that, to provide accurate and complete background information on the JTA, we
should delete the summary paragraph discussing the Policy Offices’ actions in
establishing the JTA and substitute his suggested text.

        Audit Response. The suggested text changes provide unnecessary detail
for the overall background of the report. Detailed background information is
contained in the findings and appendixes, as required.


                                    67
        Management of the JTA. The Vice Director stated that we should
remove language describing the Policy Offices’ management of the JTA; the
responsibilities of the DoD Chief Information Officer that are outside of the
acquisition responsibilities of the Under Secretary of Defense for Acquisition,
Technology, and Logistics; and the procedures for waiving JTA requirements.
Along with these suggested changes, he stated that we should insert language
that:

           •   emphasizes that the Policy Offices manage the JTA as co-chairs
               of the Architecture Coordination Council.

           •   states that the Assistant Secretary of Defense (Command,
               Control, Communications, and Intelligence), as the DoD Chief
               Information Officer, must ensure the interoperability of National
               Security Systems and Information Technology Systems
               throughout DoD, and that DoD Components use prescribed
               National Security Systems and Information Technology Systems
               data standards, including applicable standards in the JTA.

           •   summarizes the updated waiver policy from the January 4, 2001,
               version of DoD Regulation 5000.2-R.

        Audit Response. We did not remove the draft report language on the
Policy Offices’ management of the JTA. The Policy Offices do jointly manage
the JTA. The Architectural Coordination Council and other subordinate groups
are the vehicles through which the Policy Offices accomplish management of the
JTA. Based on comments received from the Director, Interoperability, Office
of the Under Secretary of Defense for Acquisition, Technology, and Logistics,
we modified the report text to show that responsibilities of the DoD Chief
Information Officer, for pre- and post-acquisition of systems, actually overlap
those of the Under Secretary. Where appropriate, we also made revisions
concerning the additional information that the Vice Director requested.

        Public Law and Government Policy. The Vice Director stated that
JTA development was not the responsibility of the DoD Chief Information
Officer. Additionally, he provided references to Public Law and Government
policies pertaining to National Security Systems, Information Technology
Systems and the JTA.

        Audit Response. The information concerning responsibilities of the
DoD Chief Information Officer were correctly stated. The exerpts from Public
Law and Government policy were intended to show that these laws and policy
support the DoD use of JTA. Additionally, we did not state that DoD JTA
development was the responsibility of the DoD Chief Information Officer. We
stated that Public Law requires the Chief Information Officer for each Military
Department to ensure that Information Technology and National Security
Systems are in compliance with Government and DoD standards and that
Information Technology and National Security Systems are interoperable with
other relevant Government and DoD Information Technology and National
Security Systems.


                                   68
        Audit Objectives. The Vice Director stated that we should delete
“planning” from our stated audit objectives. He stated that Inspector General,
DoD, Report No. 98-023, “Implementation of the DOD Joint Technical
Architecture,” November 18, 1997, already covered JTA planning through
evaluating JTA implementation plans. Further, he stated that JTA planning
should be referred to as JTA version planning. He asserted that the Offices of
the Under Secretary of Defense for Acquisition, Technology, and Logistics and
the Assistant Secretary of Defense (Command, Control Communications, and
Intelligence) did not provide a single comment that JTA implementation plans
submitted by DoD Components were insufficient. Additionally, the Vice
Director asserted that our statement that JTA implementation plans did not fully
comply with guidance from the Policy Offices and were not consistent in
implementing the standards was inaccurate and unfair. Lastly, he recommended
that the draft report assess National Security Systems and Information
Technology Systems to determine whether relevant JTA standards and other
standards were specified in requests for proposals and system architecture.

        Audit Response. We reviewed planning related to JTA implementation
because the staff of the Assistant Secretary of Defense (Command, Control
Communications, and Intelligence) requested that we follow up on the
recommendations addressing JTA implementation in Inspector General, DoD,
Report No. 98-023. Finding A clearly stated what is involved in JTA planning.
In finding A, we also documented that the JTA implementation plans of many
DoD Components were incomplete and needed to be updated. Further, we
addressed the lack of comments from the offices of the Under Secretary and the
Assistant Secretary as one of the causal factors for the noted incompleteness of
JTA implementation plans. We assessed program office inclusion of JTA
standards in acquisition planning documents through our JTA survey
questionnaires of all Acquisition Category I programs; therefore, we did not
separately assess National Security Systems and Information Technology
Systems to see whether relevant JTA standards and other standards were
specified in their requests for proposals and system architecture because the JTA
has broader application.

Comments on Finding A. The Vice Director provided comments that
addressed the overall finding, the finding paragraph, and the finding sections
“Policy for JTA Implementation Plans,” and “DoD Component Implementation
Plans.”

        Overall Finding. The Vice Director stated that all DoD Components
submitted JTA implementation plans and that the Offices of the Under Secretary
of Defense for Acquisition, Technology, and Logistics and the Assistant
Secretary of Defense (Command, Control Communications, and Intelligence)
did not reject any of the plans. The Vice Director then stated that we should
remove this finding from the report.

       Audit Response. The lack of feedback to the DoD Components on their
JTA implementation plans from the Offices of the Under Secretary and the
Assistant Secretary was one of the causal factors for the noted incompleteness of
the JTA implementation plans.



                                   69
        Finding Paragraph. The Vice Director suggested the following changes
to the finding paragraph:

          •   Replace “Policy Offices” with “Assistant Secretary of Defense
              (Command, Control Communications, and Intelligence) / DoD
              Chief Information Officer when discussing DoD Component
              compliance with guidance for preparing JTA implementation
              plans. He stated that only the Assistant Secretary issued the
              memorandum, “Clarification on the Content of DoD
              Components' Joint Technical Architecture (JTA) Implementation
              Plans,” October 4, 1996.

          •   Replace “Policy Offices” with “Architectural Coordination
              Council Tri-chairs” when discussing causal factors for the
              conditions noted in the finding paragraph.

          •   Delete the three bullets describing causal factors for the finding
              condition for the following reasons:

              − DoD is a finite organization. The “universe of DoD
                Components” list is unnecessary for implementing JTA.

              − Definitive guidance for preparing and updating JTA
                implementation plans is not necessary because the DoD
                Acquisition processes are program and system based.
                Program managers tailor and specify applicable JTA
                standards into the request for procurement for the offeror in
                costing on the system. The JTA implementation plan is not
                the implementation of JTA. JTA mandate language is already
                included in DoD Regulation 5000.2-R.

              − Management processes to receive, track, evaluate, and
                provide feedback on the content of JTA plans are not
                necessary because DoD has many measures and procedures in
                place, including those contained in DoD Regulation 5000.2-R
                and CJCS Instruction 6212.01B, to ensure “interoperability.”

      In addition to the above suggestions pertaining to the finding paragraph,
      the Vice Director stated that the draft audit report did not recognize that
      the DoD 5000 series excludes embedded weapon systems and tactical
      communications systems.

      Audit Response. In response to the suggestions and comments from the
Vice Director:

          •   We did not replace “Policy Offices” with “Assistant Secretary of
              Defense (Command, Control Communications, and Intelligence) /
              DoD Chief Information Officer when discussing DoD Component
              compliance with guidance for preparing JTA implementation
              plans because all three Policy Offices signed the two JTA


                                   70
    implementation memorandums addressing implementation plans
    that followed the JTA Version 1.0 implementation memorandum,
    October 1996.

•   We did not change “Policy Offices,” to “Architectural
    Coordination Council Tri-chairs” when discussing causal factors
    for the conditions noted in the finding paragraph because we
    believe that “Policy Offices” is a more descriptive term for
    referring to the three offices involved in managing the JTA.
    However, for clarification, we modified the finding to state that
    the DoD Components did not comply with policy and guidance
    (rather than guidance only) from the Policy Offices. That
    description is more accurate. Although the Assistant Secretary’s
    October 4, 1996, memorandum on content of implementation
    plans was guidance, DoD Components also did not follow policy
    in the memorandums that the Policy Offices issued to implement
    JTA Versions 1.0, 2.0, and 3.0.

•   We did not delete the three bullets from the finding paragraph for
    the following reasons:

    − The Office of the Secretary of Defense needs to identify the
      universe of DoD Components that should be submitting JTA
      implementation plans. The Office of the Assistant Secretary
      can then direct its attention to ensuring that all applicable
      DoD Components submit JTA implementation plans as
      required and provide direction, as needed, on the content of
      the submitted plans. Additionally, while those DoD
      Components having major acquisition involvement may have
      submitted a JTA implementation plan, six DoD Components
      had only submitted implementation plans for JTA Version 1.0
      and not for JTA Version 2.0, as detailed in Appendix E.

    − The need for definitive guidance for preparing and updating
      JTA implementation plans is apparent. We highlighted some
      of the unique strengths in individual DoD Component
      implementation plans that could be of benefit for all DoD
      Component plans. When we provided examples of these
      strengths to the Office of the Assistant Secretary of Defense
      (Command, Control Communications, and Intelligence) co-
      chair of the JTA Technical Architecture Steering Group, he
      agreed that it would be beneficial to develop a template that,
      would provide the DoD Components with a listing and
      explanation of JTA planning topics and considerations for
      addressing each topic.

    − The need for management processes for tracking and
      providing feedback on JTA implementation plans is long-
      standing and was first reported in Inspector General, DoD,
      Report No. 98-023. As discussed in finding A, the Office of
      the Assistant Secretary of Defense (Command, Control


                        71
                  Communications, and Intelligence), is taking actions which,
                  when completed, will allow it to receive, track, evaluate, and
                  provide review and feedback on DoD Component plans.

               − The draft report did not state that the DoD 5000 series
                 excludes embedded weapon systems and tactical
                 communications systems, but this fact is background in nature
                 and has no impact on the findings and recommendations in
                 our report.

       Policy for JTA Implementation Plans. The Vice Director suggested
that we revise finding A to summarize all of the key points in the three JTA
policy memorandums.
       Audit Response. We did not expand the discussion of the three JTA
policy memorandums because we limited our summary of the memorandums to
those policy elements specifically relating to the issues addressed in finding A.

        DoD Component Implementation Plans. The Vice Director stated that
the draft report assertion that review of DoD Component JTA implementation
plans showed that the Components did not comply with Office of the Assistant
Secretary of Defense (Command, Control Communications, and Intelligence)
direction regarding submission and content of plans is incorrect. He stated that
DoD Regulation 5000.2-R governs JTA “implementation.”

       Audit Response. DoD Regulation 5000.2-R governs JTA
implementation. To assist the DoD Components in implementing JTA
implementation requirements in DoD Regulation 5000.2-R, the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence)
issued guidance clarifying the required content of DoD Component JTA
implementation plans. Accordingly, we did not revise the report in response to
the Vice Director’s comments.

Comments on Finding B. The Vice Director made the following comments on
finding B relating to requirements in key acquisition planning documents.

   •   program managers did not routinely insert JTA requirements in the
       mission needs statement and the operational requirements documents is
       misleading because the program manager is not responsible for writing
       requirements documents.

   •   an Inspector General review of selected requirements documents
       demonstrated that all documents reviewed by the Joint Staff and Defense
       Information Systems Agency since 1998 mandated JTA compliance for
       those programs that were required to comply with the JTA, and
       requirements documents that did not mandate JTA compliance received
       Joint Staff nonconcurrence throughout the review process.

   •   regardless of whether a pre-1998 requirements document was updated to
       mandate JTA compliance, the program manager was required to acquire
       systems that were JTA compliant, where technically and fiscally feasible.

                                    72
Audit Response. With regard to responsibility for writing requirements
documents, we revised finding B and Appendix F to clarify that the DoD
Components write the initial draft version of the requirements documents, not
the program manager.

During the audit, we reviewed document files in the Office of the Joint Chiefs
Staff Director for Command, Control Communications, and Computers to
corroborate the 39 program managers’ survey responses on whether JTA
language was in the mission needs statements and the operational requirements
documents as discussed in finding B. We did not review mission needs
statements because the Director’s office did not have these documents on file for
the 39 programs that responded to our survey questionnaire. The results of our
review of program operational requirements documents were as follows:
       •   program operational requirements documents were on file for 24 of
           the 39 programs responding.

       •   of the 24 operational requirements documents on file:

              − Eleven operational requirements documents (9 dated 1997 or
                prior and 2 dated 1998 or later) did not include a requirement
                for JTA compliance. For the 2 most recent operational
                requirements documents, the Vice Director’s Office had noted
                the lack of a JTA requirement in a critical resolution matrix
                attached to the operational requirements document.

              − Thirteen operational requirements documents included the
                requirement for JTA compliance.

       •   our comparison of program manager responses on whether the
           operational requirements document for their program contained a
           JTA requirement to the 24 operational requirements documents in the
           files of the Office of the Director for Command, Control,
           Communications, and Computers showed that program manager
           responses:

              − agreed with the results of our survey questionnaire for 17 of
                the 24 programs,

              − disagreed with the results of our survey questionnaire for four
                programs, with the program managers stating that JTA
                requirements were not included in the operational
                requirements document although our review showed that JTA
                requirements were included in the documents, and

              − disagreed with the results of our survey questionnaire for
                three other programs, with the program managers stating that
                JTA requirements were included in the operational
                requirements document although our review showed that JTA
                requirements were not included in the documents.


                                   73
Based on the above results, we believe that our review of operational
requirements documents largely corroborated responses to our survey
questionnaire regarding JTA requirements in the operational requirements
document. Accordingly, we made no revisions to the report based on the Vice
Director’s comments.

Comments on Appendix B. The Vice Director requested that we add
definitions of the following terms to the appendix: “automated information
system,” “weapon system,” “milestone decision authority,” and “program
manager.”

Audit Response. We revised the report to include the additional definitions.

Comments on Appendix D. The Vice Director requested that we delete the
text of the appendix and replace it with updated descriptions that he provided of
the responsibilities for managing the JTA.

Audit Response. We revised the language in the appendix to include any
additional or revised information contained in the Vice Director’s updated
descriptions.

Comments on Appendix E. The Vice Director stated that we should delete this
appendix, because it was unrelated to the title of our report, “Use of DoD Joint
Technical Architecture in the Acquisition Process.”

Audit Response. We did not delete the appendix. The topic of the appendix,
“DoD Component JTA Implementation Plans,” is related to the report title and
concerns effective use of the JTA in the acquisition process.

Comments on Appendix F. The Vice Director stated that we should delete the
mission needs statement and the operational requirements documents from the
appendix because they are requirements generation documents, not acquisition
planning documents.

Audit Response. We did not delete the mission needs statement and the
operational requirements documents from the appendix. Although these
documents are part of the requirements generation process, they are also part of
the acquisition planning process. DoD Regulation DoD 5000.2-R,
January 4, 2001, classifies these documents as approved source documents.
DoD Components use these source documents to formulate program acquisition
strategy.

Note. The Vice Director provided other editorial comments that we
implemented where appropriate.




                                    74
Army Comments
   Although not required to comment, the Vice Director of Information Systems
   for Command, Control, Communications, and Computers, Office of the
   Secretary of the Army, stated that the Army agreed with the findings and
   basically agreed with the proposed recommendations. However, he stated that
   his office would like to discuss some concerns regarding the recommendations
   with the audit team and the Services. For example, the Vice Director stated
   that he did not understand the extent of the Defense Information Systems
   Agency’s proposed role in the review process for mission needs statements and
   operational requirements documents. He asserted that the Army already
   included JTA compliance language in acquisition documents and that the Army
   and DoD review the documents. He further stated that the Army was active in
   implementing and revising the JTA to help achieve weapon system
   interoperability and to support the open systems approach to weapon system
   design.




                                     75
Appendix H. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control Communications, and Intelligence)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Information Systems Agency




                                          76
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management,
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         77
___________________________________________________________________


Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                             79
___________________________________________________________________




                             80
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 14




                                                                      Page 14




                             81
               ___________________________________________________________________



Final Report
 Reference




Page 14




Page 14




                                            82
___________________________________________________________________



                                                                      Final Report
                                                                       Reference




                                                                      Page 16




                                                                      Page 28




                             83
               ___________________________________________________________________




Final Report
 Reference




Page 30




Page 31




                                            84
___________________________________________________________________


Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                             85
___________________________________________________________________




                             86
___________________________________________________________________




                             87
___________________________________________________________________




                             88
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 2




                                                                      Page 4




                             89
               ___________________________________________________________________




Final Report
 Reference




Page 16




Page 19




                                            90
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 37




                             91
___________________________________________________________________


Vice Director, Joint Staff Comments




                             92
93
___________________________________________________________________




                             94
___________________________________________________________________




                             95
               ___________________________________________________________________




Final Report
 Reference




Page i




Page i




Page ii




                                            96
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page ii




                                                                      Page ii




                                                                      Page ii




                             97
               ___________________________________________________________________




Final Report
 Reference




Page ii




Page ii




Page 1




                                            98
___________________________________________________________________




                             99
               ___________________________________________________________________




Final Report
 Reference




Page 3




Page 3




Page 3




                                            100
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 4




                                                                      Page 4




                             101
               ___________________________________________________________________




Final Report
 Reference




Page 4




Page 5




Page 5




Pages 6-18




Page 6




                                            102
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 6



                                                                      Page 6




                                                                      Page 6



                                                                      Page 6




                                                                      Page 6




                             103
               ___________________________________________________________________




Final Report
 Reference




Page 6




Pages 6-7




                                            104
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 7




                                                                      Page 7




                             105
               ___________________________________________________________________




Final Report
 Reference




Page 7-8




Page 14




Page 16




Page 17




Page 18




                                            106
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 20




                                                                      Page 28

                                                                      Page 28




                                                                      Page 30




                             107
               ___________________________________________________________________




Final Report
 Reference




Page 31




Page 31




Page 31




Page 37



Pages 42-45




                                            108
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Pages 50-52




                             109
___________________________________________________________________




                             110
___________________________________________________________________




                             111
               ___________________________________________________________________




Final Report
 Reference




Pages 53-57



Page 58-59




                                            112
___________________________________________________________________


Department of the Army Comments
                                                                      Final Report
                                                                       Reference




                                                                      Page 28




                             113
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report.


Mary L. Ugone
John E. Meling
Harold C. James
Patrick E. McHale
Renee L. Gaskin
Shaun B. Jeffery
Susan J. Lippolis
Jamie Bobbio
Wei Chang
Jenshel D. Marshall
